        UNITED STATES DEPARTMENT OF STATE
        AND THE BROADCASTING BOARD OF GOVERNORS
        OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT
TO THE CONGRESS
October 1, 2013 to March 31, 2014
SUMMARY OF OIG ACCOMPLISHMENTS


                            Financial Results

   Questioned costs

    Issued during the reporting period                                 $0

    Management decision during the reporting period            $311,000

   Recommendations for funds to be put to better use

    Issued during the reporting period                        $2,525,000

    Management decision during the reporting period          $17,516,000

   Investigative monetary recoveries                         $74,790,829



                          Investigative Results

   Cases opened                                                  27

   Cases closed                                                  14

   Judicial actions                                               0

   Administrative actions                                         7

   Contractor/grantee suspension and debarment actions            7

   Hotline and complaint activity                                550


   Reports issued                                                31



      Questions regarding this publication should be addressed to:
                       OIG-Reports@state.gov
              This document is available on OIG’s Web Site:
                          http://oig.state.gov
                   Department of State Publication 11462
                        Office of Inspector General

                  Cover photo: Embassy Islamabad, Pakistan
                     Design Architect: Yost Grube Hall
                         Architect of Record: PAGE

      Photo provided by the Bureau of Overseas Buildings Operations
                                TABLE OF CONTENTS

MESSAGE FROM THE INSPECTOR GENERAL . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3


DEPARTMENT OF STATE
OIG MANAGEMENT ALERTS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .11
OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
OFFICE OF INSPECTIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
OFFICE OF INVESTIGATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26
APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 30
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . . 32
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . . . . . . 37
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . . . 58
APPENDIX 6: PEER REVIEWS OF OIG OPERATIONS . . . . . . . . . . . . . . . . . . . . . . . 59


BROADCASTING BOARD OF GOVERNORS
OFFICE OF AUDITS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 63
APPENDIX 1: INVESTIGATIVE ACTIVITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 65
APPENDIX 2: REPORTS ISSUED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 66
APPENDIX 3: SAVINGS AND MORE EFFECTIVE USE OF RESOURCES . . . . . . . 67
APPENDIX 4: RESOLUTION OF REPORTS AND RECOMMENDATIONS . . . . . . 70
APPENDIX 5: AUDITS PERFORMED BY CONTRACTORS . . . . . . . . . . . . . . . . . . . 72


CONGRESSIONAL AND PUBLIC AFFAIRS ACTIVITIES . . . . . . . . . . . . . . . . . . . . . 73


ABBREVIATIONS. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 77



 OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2013 - MARCH 31, 2014                               ii
On Tuesday, October 29, Steve A. Linick was sworn in as Inspector General for the
Department of State and the Broadcasting Board of Governors by Secretary of State
John F. Kerry.
MESSAGE FROM THE INSPECTOR
GENERAL

                                I am pleased to present the Office of Inspector General
                                Semiannual Report to the Congress (SAR), which covers
                                the period from October 1, 2013, to March 31, 2014.
                                This is my first SAR since being confirmed by the
                                Senate and reporting for duty on September 30, 2013.
                                During this reporting period, the Office of Inspector
                                General (OIG) issued a total of 31 reports, including
                                17 audits and 7 inspection reports, along with 5 classi-
                                fied annexes covering security issues. Soon after joining
                                OIG, I initiated the practice of sending out manage-
                                ment alerts to senior Department of State (Department)
                                and Broadcasting Board of Governors (BBG) officials
       Steve A. Linick
                                in order to identify high-risk systemic issues requiring
prompt attention and risk mitigation. To date, OIG has issued two management alerts:
one addressing significant vulnerabilities in the management of contract files with a
combined value of $6 billion and the other addressing recurring weaknesses in the
Department’s information-security program.
During this first reporting period, I focused on assessing OIG’s strengths, weaknesses,
challenges, and opportunities, meeting frequently with staff in OIG and constituen-
cies throughout the Department, in Congress, and in the wider oversight community.
OIG has dedicated auditors, inspectors, and investigators charged with oversight of
the Department’s activities at home and abroad—at more than 270 missions and other
facilities worldwide. OIG is an organization with a rich history and a critical mission
to provide in-depth oversight coverage and risk management. Our goal is clear—to
act as a catalyst for effective management, accountability, and positive change for the
Department, BBG, and the foreign affairs community.
During this reporting period, OIG’s Office of Audits issued a number of noteworthy
products, including:
•	 an	assessment	of	the	Department’s	process	for	requesting,	prioritizing,	and	funding	
   physical-security-related activities at overseas posts
•	 two	reports	on	the	Department’s	information-security	program,	resulting	in	issu-		
   ance of a management alert to highlight the most prominent control weaknesses and
   underscore the importance of immediate corrective actions



                                                                                            1
    •	 an	assessment	of	the	Department’s	process	for	selecting	an	outside	contractor		 	
       to prepare the Supplemental Environmental Impact Statement for the Keystone
       XL pipeline project
    •	 an	audit	of	the	Department’s	selection	and	positioning	of	contracting	officers’		               	
       representatives and government technical monitors
    OIG’s Office of Inspections issued reports on two Department bureaus and five U.S.
    missions located in Bahrain, Bulgaria, El Salvador, Hungary, and Panama. These
    reports identified both the areas where posts or bureaus were functioning well and
    the areas for improvement, such as contract and grant management and foreign
    assistance oversight and coordination. In March 2014, I visited Embassy Kabul
    and observed the OIG team that was inspecting the Department’s operations in
    Afghanistan. I also met with our audit and investigations staff resident in Kabul. We
    will publish the results of the Embassy Kabul inspection during the next reporting
    period.
    OIG’s Office of Investigations opened 27 cases and conducted 142 investigations
    of individuals and organizations during this reporting period. Procurement fraud
    continues to be a significant investigative focus, resulting in nearly $75 million in
    ordered fines, restitution, and reimbursement from five individuals and organiza-
    tions during the reporting period. As Co-Chair of the Suspension and Debarment
    Working Group for the Council of the Inspectors General on Integrity and Efficiency
    (CIGIE), I have placed a significant emphasis on suspension and debarment since my
    arrival at OIG. Most employees in our Office of Audits were recently trained on the
    latest processes and trends. In addition, OIG’s Office of Investigations continued its
    active role in referring suspension and debarment cases to the Department’s Office
    of the Procurement Executive. During this reporting period, OIG referred 11 cases,
    resulting in 7 suspensions or debarments.
    Over the last six months, I have established sound working relationships with senior
    management at the Department and BBG. OIG will continue to work closely
    with the Department, BBG, and Congress to promote economy, efficiency, and
    effectiveness.
    It is an honor to lead this talented OIG team. I thank our dedicated and hardwork-
    ing professionals for their commitment to serving the public and acting with the
    highest standards of integrity.




                                                Steve A. Linick
                                                Inspector General

2   OFFICE OF INSPECTOR GENERAL SEMIANNUAL REPORT TO THE CONGRESS - OCTOBER 1, 2013 - MARCH 31, 2014
EXECUTIVE SUMMARY

The auditors, inspectors, investigators, and other professionals in OIG promote effec-
tive management, accountability, and positive change in the Department, BBG, and
the foreign affairs community. During this reporting period, OIG issued 31 reports
with recommendations to improve Department and BBG programs and operations,
and identified nearly $78 million in cost efficiencies, including investigative recov-
eries and funds to be put to better use. For a full list of reports issued during this
period, see Appendix 2 of each agency section of this report.
At the close of the reporting period, the Department had not made decisions in more
than 6 months on $391 million in costs that OIG had questioned or identified as
funds that could be put to better use.
This Semiannual Report to the Congress summarizes OIG’s work during the period
October 1, 2013, through March 31, 2014. Classified issues are addressed in a classi-
fied annex to this report.



   OIG Recipients of the 2013 Council of the Inspectors General on Integrity
   and Efficiency Awards for Excellence


   The 2013 CIGIE Awards recognized outstanding achievements by OIG employ-
   ees in the performance of their official duties. Recipients were selected from
   nominees across the entire Federal inspector-general community, and OIG
   employees from audits and investigative teams received the following awards in
   October:
   Special Act Award for Excellence: In recognition of exceptional performance in
   establishing a highly effective Suspension and Debarment Program within OIG
   and the Department of State, which resulted in successfully safeguarding U.S.
   Government interests.
   Audit Award for Excellence: In recognition of exceptional work in conducting
   an audit of the Worldwide Protective Services Contract for Baghdad Movement
   Security that contributed to improved efficiency and contract management and
   identified about $362 million in cost savings.




                                                                                         3
    AUDITS
    OIG issued numerous audit reports intended to improve the Department’s perfor-
    mance in areas of high risk, including the protection of people and facilities, informa-
    tion security and management, and contracts and procurement management. Key
    findings include:
    •	 Keystone XL Pipeline. OIG initiated a follow-up review in September 2013 to
       determine whether the Department’s process used to select a third-party contrac-
       tor for the Keystone XL supplemental environmental impact statement (SEIS)
       review followed prescribed guidance and whether the process used to review
       related organizational conflicts of interest was effective. OIG found that the
       process that the Department used to select a third-party contractor for the SEIS
       review substantially followed prescribed guidance and at times was more rigor-
       ous than that guidance. However, OIG made four recommendations intended to
       improve the documentation and public disclosure of the Department’s contractor
       selection and conflict-of-interest review processes.
    •	 Physical Security. In the wake of the fatal September 2012 attacks against diplo-
       matic facilities in Benghazi, Libya, and the subsequent compound closures result-
       ing from protest violence and credible threats in North Africa and the Middle
       East, OIG completed two audits related to security. In an audit of Emergency
       Action Plans for the U.S. Mission in Pakistan, OIG determined that, although
       the mission practiced periodic emergency planning, training, and drills, the
       Emergency Action Committees for Embassy Islamabad and Consulates General
       Karachi, Lahore, and Peshawar had not ensured that necessary resources were
       available to respond to emergency situations, potentially jeopardizing the security
       of Department personnel and property.
        OIG also contracted with an independent external auditor to assess the process to
        request and prioritize funds to meet the physical-security requirements of overseas
        activities. OIG reported that the Department lacked standardized and docu-
        mented policies and procedures for these processes, and that a significant number
        of post officials had reported dissatisfaction with the timeliness and sufficiency of
        the Department’s responses to physical-security needs. Further, OIG found that
        the Department had not maintained comprehensive lists of reported physical-
        security deficiencies or related funding requests, hindering the Department’s
        ability to correct the highest-priority physical-security needs and to adequately
        mitigate vulnerabilities to threats at overseas posts.
    •	 Information Security. As the Department is entrusted to safeguard classified
       information vital to the preservation of national security in high-risk environ-
       ments across the globe, OIG completed two assessments of the Department’s
       information-security program. In accordance with the Federal Information
       Security Management Act of 2002 (FISMA), OIG contracted with an inde-
       pendent external auditor to analyze the Department’s compliance with Federal


4
   laws, regulations, and standards related to information security. Although
   the Department made progress toward strengthening its information-security
   program, OIG identified several significant and recurring deficiencies in six areas
   that could negatively impact the Department’s ability to protect sensitive and
   classified information, which OIG considers overall to be a significant deficiency.
   Because multiple and recurring issues surfaced during OIG’s annual reviews of
   the Department’s information-security program since FY 2011, OIG issued a
   management alert to highlight the most prominent control weaknesses and to
   underscore the importance of immediate corrective actions.
•	 Contract and Grant Management. The Department is responsible for the
   proper management, oversight, and accountability of more than $8 billion in
   worldwide contracts and procurement activities, including grants and coopera-
   tive and interagency agreements. In an audit of the Department’s selection and
   positioning of contracting officers’ representatives (CORs) and government
   technical monitors (GTMs), who are charged with the oversight and administra-
   tion of acquisition duties, OIG found significant weaknesses in COR-related
   internal controls as well as COR workforce management, planning, policies, and
   guidance, which could result in mismanagement of Department contracts and
   procurement activities.
   An audit of the Department’s closeout process for contracts supporting the U.S.
   Mission in Iraq, conducted by an independent external audit firm contracted
   by OIG, determined that the Department had not established comprehensive
   procedural guidance or tracking mechanisms for the contract closeout process
   and had not consistently complied with Federal and Department requirements
   for 115 Iraq-related contract task orders reviewed. As a result, the risk of financial
   mismanagement had increased. OIG reported, for example, that $38.7 million
   had not been deobligated in a timely manner, and funds expired before they
   could be reobligated, preventing their use for other purposes.




INSPECTIONS
OIG issued inspection reports on five overseas posts and two domestic bureaus
during this reporting period. OIG also issued five classified annexes covering security
issues at the posts inspected. These inspection reports noted areas where posts or
bureaus were functioning well, in most cases advancing U.S. policy priorities, and
identified four best practices. These are key findings and recommendations aimed at
making improvements:
   •	 OIG’s inspection of the Bureau of Conflict and Stabilization Operations
      identified weaknesses in contractor management and found that the bureau’s
      mission was unclear to many in the Department and to interagency partners.


                                                                                            5
       •	 At Embassy Manama, OIG identified several issues, including a failure to
          maintain a robust planning process, sparse economic reporting, and deficien-
          cies in management controls, especially in procurement.
       •	 OIG’s inspection of Embassy San Salvador identified the need for a compre-
          hensive inventory of foreign assistance programs, which have totaled 		
          $1 billion over the last 5 years. OIG recommended that the embassy review
          the inventory regularly to ensure proper oversight and policy coordination.
       •	 OIG also identified a number of missions and bureaus that had difficulties
          cataloging, coordinating, and providing adequate oversight of foreign assis-
          tance programs. At one post, a Department review found deficiencies in grant
          files, including inconsistent plans for monitoring and managing risks.




    INVESTIGATIONS
    During this reporting period, OIG conducted numerous investigations involving
    procurement fraud, which continues to be the Office of Investigation’s primary focus.
    These were the most significant:
       •	 A joint investigation involved allegations of inflated cost and pricing data on
          a Department task order for a contract executed in Iraq. The investigation
          determined that the Department significantly overpaid on the task order as a
          result of overbilling by the contractor. The contractor agreed to reimburse the
          Department $64,347,239 for the amount of the overpayment.
       •	 Another joint investigation involved allegations of double billing by a
          Department grant recipient in Afghanistan. A financial audit determined
          that $861,426 in costs between the various grant amendments was deemed
          unallowable. On November 27, 2013, the Department grants specialist issued
          a letter to the grantee advising that $861,426 in costs would be unallowable
          and that the Department intended to take measures to recover the costs.
       •	 A joint investigation involved a Department-funded contract in Afghanistan.
          The investigation determined that the owner of the contract company was
          provided bid information by a government employee. The government termi-
          nated the contract for default, thereby incurring a cost savings of $1,714,269.
       •	 An investigation involving allegations of theft of $49,130 in grant funds by
          a grantee in Afghanistan determined that the grantee received the funds but
          did not produce the product required by the terms of the grant. The case
          was referred to the local Afghan Attorney General’s office. The Department
          debarred the grantee and her company for a period of 3 years.



6
INTERNATIONAL BROADCASTING
During this reporting period, OIG released three reports on BBG operations and
programs. OIG contracted an independent auditor to perform an audit of the BBG
information-security program’s compliance with Federal laws, regulations, and
standards. The contractor found that BBG had implemented an information-security
program, but it identified control weaknesses that significantly affect the program. In
a separate audit of BBG’s 2013 financial statements, an independent external audi-
tor found material weaknesses and a significant deficiency in internal control over
financial reporting. OIG released a management letter related to the audit of BBG’s
2013 financial statements, recommending that BBG take corrective action.




                                                                                          7
8
DEPARTMENT
     OF
   STATE
OIG MANAGEMENT ALERTS

In November 2013, OIG released its first management alert—a new oversight product
meant to promptly inform management officials of systemic risks or deficiencies that
require urgent attention. In the first alert, OIG addressed longstanding deficiencies in
the Department’s system for managing sensitive information. In a second alert, issued
in March 2014, OIG summarized the 6 years of OIG findings identifying failures
to maintain contract files for more than $6 billion in contracts. OIG publishes these
alerts on its website at oig.state.gov, along with management responses and subsequent
actions taken to resolve outstanding issues.


Management Alert: OIG Findings of Significant and Recurring Weaknesses
in the Department of State Information System Security Program
(MA-A-0001)
OIG issued this management alert in November 2013 to elevate to the Department’s
Management Control Steering Committee the significant and recurring weak-
nesses reported by OIG in its last three annual reports (FY 2011–FY 2013) on the
Department’s compliance with the Federal Information Security Management
Act (FISMA). Because these recurring weaknesses continue to put at significant risk
the integrity of the Department’s overall information-security program, OIG has desig-
nated the collective weaknesses as a significant deficiency, requiring immediate correc-
tive action, as defined by Office of Management and Budget. Pursuant to the Federal
Managers Financial Integrity Act (FMFIA), OIG recommended that the Department
externally report the deficiency as a material weakness and include the finding in the
Department’s FMFIA annual statement of assurance. OIG also recommended that
the Bureau of Information Resource Management develop a comprehensive corrective
action plan, including independent penetration testing to further evaluate the program
and outline a range of technical and procedural countermeasures to reduce risk.
The Department concurred in part. During its FY 2014 FISMA audit, OIG will be
conducting penetration testing of the Department’s IT enterprise systems.


Management Alert: Contract File Management Deficiencies (MA-A-0002)
As a result of collaborative efforts between the Offices of Audits, Inspections, and
Investigations, OIG issued a management alert that identified more than $6 billion
in Department contracts over a 6-year period for which contract files were incomplete
or could not be located. OIG determined that this failure to adequately maintain
contract files created significant financial risk and demonstrated a lack of internal
control over the Department’s contracting actions. OIG recommended that the
Department’s Bureau of Administration, Office of the Procurement Executive, develop


                                                                                           11
     and implement a process to randomly sample and verify the completeness of contract
     files and provide results of its reviews of this new process to pertinent Department
     officials. OIG also recommended that the Under Secretary for Management ensure
     that contracting officers, support personnel, and specialists who conduct oversight
     visits have sufficient resources to maintain contract files in accordance with relevant
     regulations and policies. The Department agreed to the recommendations.




12
OFFICE OF AUDITS
AUDIT COMPLIANCE

Compliance Follow-up Audit of Bureau of Oceans and International
Environmental and Scientific Affairs Administration and Oversight of
Funds Dedicated To Address Global Climate Change (AUD-ACF-14-16)
OIG performed a compliance follow-up audit of its Audit of Bureau of Oceans and
International Environmental and Scientific Affairs Administration and Oversight of
Funds Dedicated To Address Global Climate Change (AUD/CG-12-40, July 2012)
to evaluate the corrective actions taken by the Department in response to its
original report. Overall, OIG found that the Department was making progress in
addressing the deficiencies identified and in implementing the corrective actions
recommended in AUD/CG-12-40. With the issuance of this follow-up report,
OIG closed the remaining open recommendations from the original report. This
follow-up report contains eight reissued or modified recommendations and one
new recommendation for actions necessary to meet the intent of the original
report.

CONTRACTS AND GRANTS

Audit of Department of State Selection and Positioning of Contracting
Officer’s Representatives (AUD-CG-14-07)
OIG initiated this audit to determine the extent to which the Department’s
CORs and GTMs were selected and positioned to successfully perform their
assigned contract administration and oversight responsibilities. OIG examined one
contract judgmentally selected from each of four bureaus: the Bureau of African
Affairs (AF), the Bureau of International Narcotics and Law Enforcement Affairs
(INL), the Bureau of Near Eastern Affairs, and the Bureau of Overseas Buildings
Operations.
OIG found that COR and GTM experience, positioning, and oversight were
adequate for three of the four contracts reviewed. For the fourth contract, however,
OIG found inadequate COR experience, positioning, and oversight within AF,
which resulted in AF’s use of third-party contractors to perform inherently govern-
mental functions. OIG also found significant COR related internal control weak-
nesses. Specifically, Department-wide COR workforce management and planning
needed to be improved, and certain Department COR-related policies required
implementation guidance to be effective.



                                                                                       13
     OIG made recommendations to improve contract administration and oversight
     within AF, such as requiring prior contract oversight experience for individuals
     who would perform COR related duties and pursuing all opportunities to employ
     Government employees rather than contractors for COR duties. To improve COR
     workforce management and policies, OIG recommended specifying the types of
     information that should be documented in COR nomination memoranda; and to
     improve acquisition workforce planning efforts, that the Department request input
     from all bureaus for use in developing the annual Acquisition Human Capital Plan.


     FINANCIAL MANAGEMENT

     Independent Accountant’s Report on the Application of Agreed-Upon
     Procedures: Employee Benefits, Withholdings, Contributions, and
     Supplemental Semiannual Headcount Reporting Submitted to the Office
     of Personnel Management (AUD-FM-14-01)
     Under OIG’s direction, an independent external auditor performed agreed-upon
     procedures as required by an Office of Management and Budget Bulletin criterion.
     These procedures were performed to assist the Office of Personnel Management in
     assessing the reasonableness of withholdings and contributions for retirement, health
     benefits, and life insurance, as well as enrollment information submitted via the
     Semiannual Headcount Report. The auditor performed additional procedures to
     assist the Office of Personnel Management in identifying and correcting errors relat-
     ing to processing and distributing Combined Federal Campaign payroll deductions.
     In general, the auditor identified no reportable differences as a result of applying
     the majority of the procedures. However, the auditor reported some differences as a
     result of applying procedures relating to life-insurance and health-benefit elections,
     contributions, and withholdings; the Semiannual Headcount Report; and accounting
     codes and the official duty stations of employees with Combined Federal Campaign
     deductions.

     Independent Auditor’s Report on the U.S. Department of State 2013 and
     2012 Closing Package Financial Statements (AUD-FM-14-09)
     An independent external auditor reviewed the Department’s closing-package finan-
     cial statements as of the end of fiscal years 2012 and 2013. The auditor found that,
     in accordance with accounting principles generally accepted in the United States of
     America, the closing-package financial statements presented fairly, in all material
     respects, the financial position of the Department, its net costs and changes in net
     position, as the years ended on September 30. The auditor identified no material
     weaknesses in internal control over the financial reporting process for the closing-
     package financial statements, and the auditor’s tests for compliance with Department
     of the Treasury requirements disclosed no instances of noncompliance that were
     required to be reported.

14
Independent Auditor’s Report on the U.S. Department of State 2013 and
2012 Financial Statements (AUD-FM-14-10)
An independent external auditor reviewed the Department’s closing-package finan-
cial statements as of the end of fiscal years 2012 and 2013. The auditor found that,
in accordance with accounting principles generally accepted in the United States of
America, the closing-package financial statements presented fairly, in all material
respects, the financial position of the Department, its net costs and changes in net
position and budgetary resources, as the years ended on September 30.
The auditor found certain reportable deficiencies in internal control. Specifically, the
auditor found significant deficiencies in the internal control over financial report-
ing, property and equipment, budgetary accounting, unliquidated obligations,
Foreign Service Retirement and Disability Fund data, and information technol-
ogy. The auditor also found instances of noncompliance with certain provisions of
laws, regulations, contracts, and grant agreements, including instances in which the
Department’s financial management systems did not substantially comply with the
requirements of the Federal Financial Management Improvement Act.

Independent Auditor’s Report on the International Boundary and Water
Commission, United States and Mexico, U.S. Section, 2013 and 2012
Financial Statements (AUD-FM-14-12)
An independent external auditor reviewed the International Boundary and Water
Commission, United States and Mexico, U.S. Section (USIBWC) consolidated
financial statements as of the end of fiscal years 2012 and 2013. The auditor found
that, in accordance with accounting principles generally accepted in the United States
of America, the consolidated financial statements presented fairly, in all material
respects, the financial position of the Department, its net costs and changes in net
position and budgetary resources, as the years ended on September 30.
The auditor found certain reportable deficiencies in internal control over financial
reporting. Specifically, the auditor found significant deficiencies in the internal
control over information technology and property and equipment.

Management Letter Related to the Audit of the International Boundary
and Water Commission, United States and Mexico, U.S. Section, FY 2013
Financial Statements (AUD-FM-14-13)
During the audit of USIBWC’s 2013 financial statements, the independent external
auditor identified internal control weaknesses relating to obligation validity and
environmental liabilities. The external auditor recommended that USIBWC take
appropriate action to address these weaknesses.




                                                                                           15
     Audit of the Process to Request and Prioritize Physical Security-Related
     Activities at Overseas Posts (AUD-FM-14-17)
     The Secretary of State has responsibility for the protection of more than 86,000
     U.S. Government employees from more than 30 agencies who work or live in
     Government-owned or long-term leased buildings in overseas locations. A funda-
     mental component of protecting these employees is maintaining sufficient physical
     security at these locations. OIG contracted with an independent external auditor to
     accomplish the following:
         •	 identify the FY 2012 funding mechanisms and amounts expended for physi-
            cal-security-related activities
         •	 determine whether the process used to request funds for physical-security
            needs was easy to use and understood by post security officials
         •	 determine to what extent the Department used physical-security funds for
            high-priority physical-security needs at overseas posts during FY 2012
     The external auditor found that the Department funded FY 2012 activities related
     to physical security primarily with funds received for Worldwide Security Upgrades,
     which amounted to $775 million in FY 2012. The Department also received
     $511.4 million from other agencies at overseas posts through cost-sharing agreements.
     In addition, other appropriated funds were used for physical-security needs, includ-
     ing funds received for Repair and Construction, Overseas Contingency Operations,
     and Worldwide Security Protection. The auditor identified physical-security-related
     expenditures amounting to $76.1 million for Worldwide Security Upgrades and
     $48 million for Worldwide Security Protection. However, the auditor could not iden-
     tify all FY 2012 expenditures because the Department did not, and was not required
     to, discretely track all physical security expenditures.
     The auditor found that the majority of post security officials responding to an OIG
     questionnaire believed that the processes to request funds for physical security-related
     needs were clear and easy to use. However, a significant number of the officials
     believed the processes were unclear and difficult, and they expressed dissatisfaction
     with the timeliness or sufficiency of the responses received to their formal requests
     for physical-security funding. The lack of understanding, perceived complexity of
     the processes, and dissatisfaction with responses to requests occurred because the
     Department had not developed standardized and documented policies and proce-
     dures for requesting funding for most physical-security needs. These shortcomings
     may prevent the posts from addressing their physical-security needs adequately and
     promptly.
     The auditor could not determine the extent to which the Department used physical-
     security funds for high-priority physical-security needs during FY 2012 because the
     Department did not have complete information to prioritize those needs. Specifically,
     the bureaus responsible for ensuring that the Department’s overseas facilities are safe
     and secure, Diplomatic Security and Overseas Buildings Operations, did not have

16
a comprehensive list of physical-security deficiencies at all overseas posts or a list
of posts’ FY 2012 requests for funding and the disposition of those requests. In
addition, neither bureau had formal processes to prioritize physical-security needs,
sufficient formal processes for coordinating the establishment of standards to help
determine priorities and facilitate agreement on funding decisions, or a compre-
hensive long-range physical-security plan. As a result, the Department could not
ensure that the highest priority physical security-related needs at overseas posts were
corrected and that posts’ vulnerability to threats had been sufficiently reduced.
OIG recommended that the Department develop and implement standard policies
and procedures for requesting funds and responding to posts’ requests; collect and
maintain a comprehensive list of all posts’ physical-security deficiencies; develop
and implement formal, standardized processes to prioritize physical-security defi-
ciencies; and better define the roles and responsibilities of the bureaus in these
processes.

Independent Review of the U.S. Department of State Accounting
of FY 2013 Drug Control Funds and Related Performance Report
(AUD-FM-14-19)
OIG independently reviewed the assertions made in the Department’s accounting
of FY 2013 drug-control funds and related performance report, which was submit-
ted to the Director of the Office of National Drug Control Policy (ONDCP) in
compliance with ONDCP guidance. OIG’s review did not identify any evidence
to suggest that the management assertions included in the report were not fairly
stated, in all material respects, based upon the guidance.


INFORMATION TECHNOLOGY

Audit of Department of State Information Security Program
(AUD-IT-14-03)
In accordance with FISMA, OIG contracted with Williams, Adley &
Company-DC, LLP to perform an independent audit of the Department
Information Security Program’s compliance with Federal laws, regulations, and
standards established by FISMA, the Office of Management and Budget (OMB),
and the National Institute of Standards and Technology (NIST).
Overall, Williams, Adley & Company-DC, LLP found that the Department had
implemented an information-security program and had made progress during
FY 2013, but auditors identified deficiencies that could impact the information-
security program and made recommendations to address these deficiencies.




                                                                                          17
     MIDDLE EAST REGION OPERATIONS

     Audit of Department of State and Embassy Kabul Planning for the
     Transition to a Civilian-Led Mission in Afghanistan (AUD-MERO-14-05)
     The U.S. Mission in Afghanistan is scheduled to transition from a predominantly
     military-led to a civilian-led mission in December 2014. OIG found that Embassy
     Kabul had generally engaged in effective planning for the transition by instituting
     a programmatic approach to the transition and by incorporating lessons learned
     from the Iraq transition. Specifically, Embassy Kabul had established a transition
     organization, developed strategic and operational transition plans, established lines
     of communication with other transition stakeholders, implemented a process for
     monitoring and reviewing transition tasks, and utilized the expertise of subject
     matter experts. However, OIG also found that key decisions cannot be timely made
     until the U.S. military presence post-2014 is clarified. Without timely key decisions,
     the embassy will potentially be unable to fully prepare for the transition from a
     military-led to civilian-led mission in Afghanistan. OIG’s report did not contain any
     recommendations.

     Audit of the Contract Closeout Process for Contracts Supporting the U.S.
     Mission in Iraq (AUD-MERO-14-06)
     Since March 2003, the Department has contracted for goods and services to
     support the U.S. Mission in Iraq. According to USASpending.gov, the Department’s
     contracting activity for Iraq increased from 50 contract actions, totaling approxi-
     mately $311 million in FY 2004, to 1,604 contract actions, totaling approximately
     $1.3 billion in FY 2012. Contract closeout, the final phase in a contract’s lifecycle,
     is a key step in ensuring that the Department receives the appropriate goods and
     services at the agreed-upon price.
     OIG contracted with an external audit firm to determine whether the Department
     had effectively and efficiently closed contracts supporting the U.S. Mission in
     Iraq. The firm, acting under OIG’s direction, specifically determined whether the
     Department had complied with Federal and Department contract closeout require-
     ments and whether the Department had reviewed and identified funds remaining on
     physically completed contracts that could be deobligated.
     The audit firm determined that the contract closeout teams and the contracting
     officers (COs) had not consistently met Federal and Department contract closeout
     requirements for the 115 Iraq-related contract task orders included in the review
     because the Department had not established comprehensive procedural guidance for
     contract closeout or ensured that existing guidance was accurate. Additionally, the
     Department did not have a system in place for tracking the contract and task-order
     periods of performance so that the COs could identify and monitor contracts and



18
task orders nearing physical completion. As a result, the risk of financial mismanage-
ment was increased, and, as of May 10, 2013, $38.7 million had not been deobligated
in a timely manner and had expired, preventing its use for other purposes.
OIG recommended that the Bureau of Administration revise Department guidance
to provide detailed and comprehensive procedures for closing contracts, to require
COs to insert applicable Federal requirement information in all cost-reimbursable
contracts, and to reflect the proper steps for requesting an audit of incurred costs.
OIG also recommended that the Department develop and implement an automated
application to track contract status from award through contract closeout, and an
e-Filing policy and document management system to provide effective contract file
management.

Audit of Emergency Action Plans for U.S. Mission Pakistan
(AUD-MERO-14-08)
OIG conducted an evaluation to determine whether the U.S. Mission in Pakistan had
comprehensive, up-to-date, and adequately tested emergency action plans (EAPs).
OIG determined that the Bureau of Diplomatic Security (DS) approved the EAPs for
Embassy Islamabad and Consulates General Karachi, Lahore, and Peshawar. In addi-
tion, the Embassy and Consulates General made personnel aware of their respective
EAPs and periodic planning, training, and drills. However, the Emergency Action
Committees at each location had not ensured that certain resources were available to
respond to some emergencies.
OIG recommended that Embassy Islamabad and Consulates General Karachi,
Lahore, and Peshawar ensure that their EAPs are updated and practiced, and that
resources, services, and capacities are sufficient to respond to emergencies. OIG also
recommended that DS validate the adequacy of EAPs at high-threat posts, such as the
U.S. Mission in Pakistan.


SECURITY AND INTELLIGENCE

Keystone XL Pipeline Project Compliance Follow-up Review: The
Department of State’s Choice of Environmental Resources Management,
Inc., To Assist in Preparing the Supplemental Environmental Impact
Statement (AUD-SI-14-20)
OIG initiated this follow-up review to determine how well the process used to select
Environmental Resources Management, Inc. (ERM) followed prescribed guidance
and to determine how effective the revised process was in assessing and addressing
organizational conflicts of interest for third-party contractors.



                                                                                         19
     OIG found that the process the Department used to select ERM to help prepare the
     Keystone XL Supplemental Environmental Impact Statement substantially followed
     its prescribed guidance and, in some cases, was more rigorous than that guidance.
     Although in two instances the Department made reasonable deviations from its
     prescribed guidance, OIG found that these deviations did not adversely affect the
     selection process. OIG also found that the process the Department used to assess
     organizational conflicts of interest was effective in that (i) a reasonable review was
     undertaken to independently evaluate ERM’s certification that it had no organiza-
     tional conflict of interest and (ii) the process achieved its intended result.
     However, OIG did find that the process for documenting the contractor-selection
     process, including the conflict-of-interest review, can be improved. For example, the
     Department did not document its internal substantive analyses of the specific orga-
     nizational conflict of interest issues it reviewed prior to May 2013. Additional docu-
     mentation would help ensure effective management and oversight of this process.
     The Department has acknowledged that its internal formal documentation could
     be improved and has begun more fully documenting its conflict of interest analysis.
     OIG also found that the Department’s public disclosures concerning its conflict-
     of-interest review could be improved.
     OIG made four recommendations intended to improve the documentation and
     public disclosure of the contractor selection process and conflict-of-interest review
     process. The Department concurred with all four:
         •	 Enhance Department guidance to more fully articulate its selection and
            conflict of interest review processes.
         •	 Explain in greater detail the definition of organizational conflict of interest
            relied upon by the Department.
         •	 Specify in Department guidance the documentation required in the contrac-
            tor-selection and conflict-of-interest processes, and establish standard operat-
            ing procedures to capture and retain this information.
         •	 Enhance Department guidance to integrate a process for public disclosure of
            appropriate information.




20
OFFICE OF INSPECTIONS

DOMESTIC OFFICES

Inspection of the Bureau of Economic and Business Affairs (ISP-I-14-01)
The Bureau of Economic and Business Affairs lacked an overall strategic focus. A
proliferation of special Department offices whose mandates overlap with the bureau’s
responsibilities led to confusion and duplication. Bureau structure and staffing
reflected outdated missions and priorities, and stronger leadership was required on
trade and finance. OIG made recommendations to redeploy resources and streamline
bureau operations.

Inspection of the Bureau of Conflict and Stabilization Operations
(ISP-I-14-06)
The mission of the Bureau of Conflict and Stabilization Operations was unclear to
many in the Department and to interagency partners. The bureau did not follow
Department regulations and procedures in several areas, including travel and hiring.
The team identified weaknesses in contractor management, including oversight,
security-clearance vetting, performance of inherently governmental functions, and
contract files. OIG made recommendations to address these deficiencies.


OVERSEAS MISSIONS

Bureau of European and Eurasian Affairs

Inspection of Embassy Budapest, Hungary (ISP-I-14-03A)
Embassy Budapest had a good strategic plan with priorities appropriate for the
complexities of U.S.-Hungary bilateral relations. The public-affairs section reflected
these priorities in its work, but other sections needed to develop reporting, represen-
tation, and travel plans in line with priorities established in the strategic plan. The
embassy delivered adequate management services but could perform more effectively
by improving decision making, simplifying routine processes, and enhancing collabo-
ration. OIG made recommendations to address deficiencies in reporting, representa-
tion, and management.




                                                                                          21
     INNOVATIVE PRACTICE: Ambassador’s Public Diplomacy
     Strategic Plan—Electronic Calendar at Embassy Budapest

     All U.S. missions are required to draft an Integrated Country Strategy, but
     public events or projects are sometimes not coordinated across the mission or
     specifically tied to the Integrated Country Strategy goals. Embassy Budapest
     created an electronic calendar that tracks the mission’s public events according
     to Integrated Country Strategy goals, listing planned projects, dates, venues,
     mission goal and objective, and responsible mission section, with a social-media
     plan for each item.


     Benefit: The strategic calendar is a useful management tool for the embassy
     front office and members of the country team. Public diplomacy plans are
     amplified through media outreach, Web site, and social media.




     INNOVATIVE PRACTICE: Arrivals and Departures—
     Collaboration Database at Embassy Budapest

     Information sharing and data synchronization is critical to the success of an
     embassy’s mission. However, Personally Identifiable Information issues and
     other privacy policies often prevent sections from sharing commonly gathered
     data. At Embassy Budapest, the information systems officer created a list-based
     system using Microsoft SharePoint that allows various sections to synchronize
     and share commonly gathered data without violating privacy policies. Users
     can upload data to a list, and each section’s view is restricted to only the infor-
     mation that they needed to know.


     Benefit: The SharePoint-based system provides a simple interface that increases
     information accuracy and protects Personally Identifiable Information.




22
Inspection of Embassy Sofia, Bulgaria (ISP-I-14-02A)
Embassy Sofia produced generally timely, high-quality analytical reporting on
Bulgaria’s politics, human rights, legal reform, and the burgeoning bilateral security
relationship. However, the mission needed to link travel, reporting and representation
plans, and schedules to strategic goals. OIG made recommendations to correct these
deficiencies


Bureau of Near Eastern Affairs

Inspection of Embassy Manama, Bahrain (ISP-I-14-07A)
Embassy Manama and the large U.S. Navy contingent in Bahrain did a good job
coordinating their efforts to advance military cooperation and address human rights
concerns during a time of political division within the country. However, the team
identified several issues, including the Ambassador’s leadership style and failure to
maintain a robust planning process, sparse economic reporting, and deficiencies
in management controls, especially in procurement. OIG recommended that the
embassy address management control deficiencies and correct problems in other
areas.



               INNOVATIVE PRACTICE: Mobile Internet Routers in
               Welcome Kits at Embassy Manama

               In Manama, it often takes up to a month to obtain the necessary local docu-
               mentation and make arrangements to secure residential Internet connectivity.
               The lack of connectivity during this waiting period often complicated commu-
               nications for families, including emergency notifications. In response, Embassy
               Manama purchased a number of mobile Internet routers and included one in
               each newcomer’s welcome kit. New arrivals can use the mobile router for up to
               a month, after which, they must return it to the General Services Officer for
               inclusion in the next welcome kit.


               Benefit: New arrivals are able to connect to the Internet upon arrival, which
               contributes to their smooth transition and increases productivity.




                                                                                                 23
     Bureau of Western Hemisphere Affairs

     Inspection of Embassy Panama City, Panama (ISP-I-14-04A)
     Embassy Panama City was working productively with Panama to improve law-
     enforcement cooperation, consolidate democratic institutions, and expand economic
     opportunity and transparency. The closure of the U.S. Agency for International
     Development (USAID) mission after 51 years marked a successful milestone in
     Panama’s economic development, but the embassy needed support from USAID to
     manage legacy assistance activities that taxed embassy resources. The embassy had
     successfully accommodated large staffing increases but needed to increase support
     personnel to continue to deliver adequate services. OIG made recommendations to
     address these concerns.




                    INNOVATIVE PRACTICE: Use of Windows 7 Deployment
                    Tool at Embassy Panama City

                    Embassy Panama City faced a tight deadline to upgrade network computers
                    in time for use by senior-level visitors. Upgrading the mission’s 245 comput-
                    ers would normally take a month. The information-management team used
                    remote desktop installation services to perform the upgrade quickly without
                    having to physically access all workstations.


                    Benefit: Embassy Panama City deployed Windows 7 on 245 workstations in
                    10 business days—about half the time usually required for an upgrade of this
                    type. The Department praised the mission’s innovative use of technology to
                    achieve this objective.




     Inspection of Embassy San Salvador, El Salvador (ISP-I-14-05A)
     Embassy San Salvador was functioning as a cohesive mission that effectively
     promotes U.S. interests in El Salvador. However, the embassy needs to create a
     comprehensive inventory of foreign assistance programs, which totaled $1 billion over
     the last 5 years, and should review the inventory regularly to ensure proper over-
     sight and policy coordination. The consular section had outgrown its space because
     demand for immigrant visa services had doubled over the last 5 years. OIG made
     recommendations to centralize and designate responsibility for all foreign assistance
     activities and to address Embassy San Salvador’s space needs.




24
              Systemic Issues Noted During OIG Inspections

Foreign Assistance Oversight and Coordination
A number of missions and bureaus have difficulty cataloging, coordinating, and
overseeing assistance programs. At Embassy San Salvador, where U.S. Government
foreign assistance programs totaled $1 billion over the last 5 years, OIG found the
mission lacked a comprehensive inventory of assistance programs, increasing the
chance of duplication. Embassy personnel were not aware of bureau-funded grants
totaling $717,000 and $250,000, and they had not been briefed on the results of
a Department of Labor review of grants totaling $14 million. In FY 2013, OIG
issued recommendations to address deficiencies in foreign assistance oversight during
inspections of Embassies Juba, Khartoum, Baghdad, Moscow, Manila, Rabat, Kyiv,
and the Offices to Monitor and Combat Trafficking in Persons and the U.S. Global
AIDS coordinator. OIG also found deficiencies in foreign assistance coordination
during the inspections of Embassies Juba, Kyiv, Rabat, and Baghdad.
OIG found that the Bureau of Conflict and Stabilization Operations (CSO) had to
compete with other bureaus and agencies to obtain reprogrammed funds to engage
in programs overseas because it did not receive appropriated foreign assistance funds.
Many CSO staff members told OIG they engaged in programs overseas to increase
their relevance and influence within the Department and interagency community.
OIG noted that CSO should only compete for program resources when no other
appropriate entity is available to implement a program deemed necessary to avoid or
mitigate conflict


Grants
During the inspection of Embassy Panama City, where the Department awarded 177
grants totaling $7.6 million over 5 years, OIG found that grant management respon-
sibilities were too widely disbursed, making it difficult to ensure consistent oversight.
Improvements were particularly important because several of the grantees were
considered high-risk and required increased monitoring. A recent OIG review found
that grant files did not consistently include plans for managing and monitoring risk
and were not properly organized or closed out. OIG also found Department officers
assigned to represent USAID at semiannual meetings for three foundations did not
have the required legal expertise to do so.
OIG found that Embassy San Salvador lacked trained grants officer representatives to
oversee foreign assistance programs, including two Bureau of International Narcotics
and Law Enforcement grants totaling more than $2 million. During the inspection
of CSO, OIG found that new program officers and grants officer representatives were
confused about their roles, the role of the grants officer, and the role of the grantees.



                                                                                            25
     OFFICE OF INVESTIGATIONS

     CONTRACT FRAUD
     OIG conducted a joint investigation involving allegations of inflated cost and pric-
     ing data on a Department task order for a contract executed in Iraq. The investiga-
     tion determined that as a result of overbilling by the contractor, the Department
     significantly overpaid on the task order. On October 9, 2013, the contractor agreed
     to reimburse the Department $64,347,239 for the amount of the overpayment.
     OIG conducted a separate investigation of a Department-funded contract in
     Afghanistan with other Federal law-enforcement agencies. The investigation deter-
     mined that the owner of the contract company was provided bid information by a
     government employee. The government terminated the contract for default, thereby
     incurring a cost savings of $1,714,269. The investigation remains ongoing.


     GRANT FRAUD
     OIG conducted an investigation involving allegations of theft of $49,130 in grant
     funds by a grantee in Afghanistan. The investigation determined that the grantee
     received the grant funds but did not produce the product that was required by the
     terms of the grant. On September 23, 2013, the Department of Justice declined the
     case for criminal prosecution and deferred such action to the local Afghan Attorney
     General’s office. On October 23, 2013, the Department debarred the grantee and
     her company for a period of three years.
     OIG conducted a joint investigation pertaining to possible double billing by a
     Department grant recipient in Afghanistan. A financial audit undertaken during
     the course of the investigation determined that $861,426 in costs between the
     various grant amendments was deemed unallowable. On November 27, 2013, the
     Department grants specialist issued a letter to the grantee advising it of the $861,426
     in unallowable costs and the Department’s intent to recover those costs.


     VISA FRAUD
     OIG conducted an investigation involving allegations of a widespread visa fraud
     scheme perpetrated by a husband and wife. The investigation confirmed the alle-
     gations, and both individuals were indicted and convicted of False Statements,
     Conspiracy to Commit Immigration Document Fraud, and Passport Forgery. On
     October 1, 2013, the husband was sentenced to 3 years probation and 60 days of
     intermittent confinement and the wife was sentenced to 3 years probation.

26
KICKBACKS AND GRATUITIES
OIG conducted an investigation involving three locally employed (LE) staff members
in Iraq who allegedly received payment from a vendor for the authorized removal of
recyclable waste. The investigation determined that an American embassy employee
was aware of the payments to the LE personnel and he conspired with them to conceal
the funds. The American employee was curtailed from post, and on February 25,
2014, the Bureau of Human Resources proposed that he be suspended for 20 days.
The three LE staff members were terminated from employment.


FOLLOW-UP ACTIONS


Department Contract Employee and Spouse Sentenced in Fraud Case
OIG conducted a joint investigation involving a contract employee who was alleged
to have steered Department contracts and task orders to a company owned by her
husband after she had attempted to conceal the marriage from the Department. The
investigation determined that the contract employee steered more than $39 mil-
lion in Department contracts to a company she and her husband controlled. Both
subjects pled guilty to Major Fraud Against the United States and multiple counts
of Conspiracy to Commit Illegal Monetary Transactions and Illegal Monetary
Transactions.
On December 6, 2013, the contract employee was sentenced to 24 months in prison,
and her husband received an 18-month sentence. The subjects were also ordered to
forfeit to the U.S. government a total of $7,864,795 that was determined to have been
proceeds of the fraud. For more details, see OIG’s Semiannual Report to the Congress:
April 1, 2013 to September 30, 2013, p. 33.


Department Contract Employee Sentenced for Accepting Illegal
Gratuity
OIG conducted an investigation pertaining to allegations that a personal-services
contract employee working for the Department in Afghanistan solicited money from
contractors in exchange for awarding and/or manipulating the awarding of Depart-
ment contracts. During the investigation, the contract employee admitted to OIG
that he received a $30,000 cash payment from a Department contractor. On Septem-
ber 19, 2013, the contract employee pled guilty to Receipt of an Illegal Gratuity by a
Public Official.

On January 14, 2014, the employee was sentenced to 12 months of probation, a
$3,000 fine and a $100 Special Assessment. On January 27, 2014, the Department
barred him from involvement in future contacting. For more details, see OIG’s Semian-
nual Report to the Congress, April 1, 2013 to September 30, 2013, p. 33.


                                                                                         27
     INVESTIGATIVE DATA


     Hotline

                      Total Complaints Received              550
                      Referral to Other Offices for Action   449
                      Held for Action Within OIG             54
                      No Action Necessary                    47




     Types of Cases




28
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

   Preliminary Inquiries
     Opened                                                17
     Closed                                                17
   Investigations
     Opened                                                27
     Closed                                                 14
     Pending (03/31/14)                                    138
   Criminal Actions
     Referrals for Prosecution                              8
     Indictments/Informations                               0
     Convictions                                            0
     Sentencings (Months Imprisonment)                     44
     Sentencings (Months Probation)                        132
     Declinations                                           14
   Civil Actions
     Civil Referrals                                        3
     Civil Judgments                                        0
     Civil Declinations                                     1
   Administrative Referrals
     Referrals for Personnel Action                        0
     Suitability Referrals to DS                           1
     Contractor Suspensions/Debarment Referrals to OPE     11
   Administrative Actions
     Removals                                               0
     Suspensions                                            1
     Reprimand/Admonishments/Warning Memorandum             1
     Contractors/Grantees Suspended                         2
     Contractors/Grantees Debarred                          3
     Contractors/Grantees High Risk                         0
   Monetary Recoveries
     Criminal Fines/Recoveries                             $7,867,895
     Civil Recoveries                                              $0
     Administrative Recoveries                           $66,922,934
    Total Investigative Recoveries                       $74,790,829




                                                                        29
     APPENDIX 2: REPORTS ISSUED


     Report Number    Report Title

     MA-A-0001        Management Alert: OIG Findings of Significant and Recurring Weaknesses in
                      the Department of State Information System Security Program
     MA-A-0002        Management Alert: Contract File Management Deficiencies

     AUD-FM-14-01     Independent Accountant’s Report on the Application of Agreed-Upon
                      Procedures: Employee Benefits, Withholdings, Contributions, and
                      Supplemental Semiannual Headcount Reporting Submitted to the Office of
                      Personnel Management
     AUD-ACF-14-16    Compliance Follow-up Audit of Bureau of Oceans and International
                      Environmental and Scientific affairs Administration and Oversight of Funds
                      Dedicated To Address Global Climate Change
     AUD-CG-14-07     Audit of Department of State Selection and Positioning of Contracting
                      Officer’s Representatives
     AUD-FM-14-09     Independent Auditor’s Report on the U.S. Department of State 2013 and 2012
                      Closing Package Financial Statements
     AUD-FM-14-10     Independent Auditor’s Report on the U.S. Department of State 2013 and 2012
                      Financial Statements
     AUD-FM-14-12     Independent Auditor’s Report on the International Boundary and Water
                      Commission, United States and Mexico, U.S. Section, 2013 and 2012
                      Financial Statements
     AUD-FM-14-13     Management Letter Related to the Audit of the International Boundary and
                      Water Commission, United States and Mexico, U.S. Section (USIBWC), FY
                      2013 Financial Statements
     AUD-FM-14-17     Audit of the Process to Request and Prioritize Physical Security-Related
                      Activities at Overseas Posts
     AUD-FM-14-19     Independent Review of the U.S. Department of State Accounting of FY2013
                      Drug Control Funds and Related Performance Report
     AUD-IT-14-03     Audit of Department of State Information Security Program
     AUD-MERO-14-05   Audit of Department of State and Embassy Kabul Planning for the Transition
                      to a Civilian-Led Mission in Afghanistan
     AUD-MERO-14-06   Audit of the Contract Closeout Process for Contracts Supporting the U.S.
                      Mission in Iraq
     AUD-SI-14-20     Keystone XL Pipeline Project Compliance Follow-up Review: The Department
                      of State’s Choice of Environmental Resources Management, Inc., To Assist in
                      Preparing the Supplemental Environmental Impact Statement




30
  Report Number                    Report Title

 ISP-I-14-01                       Inspection of the Bureau of Economic and Business Affairs
 ISP-I-14-02A                      Inspection of Embassy Sofia, Bulgaria
 ISP-I-14-03A                      Inspection of Embassy Budapest, Hungary
 ISP-I-14-04A                      Inspection of Embassy Panama City, Panama
 ISP-I-14-05A                      Inspection of Embassy San Salvador, El Salvador
 ISP-I-14-06                       Inspection of the Bureau of Conflict and Stabilization Operations
 ISP-I-14-07A                      Inspection of Embassy Manama, Bahrain
* Sensitive content related to these reports is included in the Classified Annex to the Semiannual Report to the Congress.



CLASSIFIED REPORTS ISSUED

  Report Number                    Report Title

 AUD-MERO-14-08                    Audit of Emergency Action Plans for U.S. Mission Pakistan
 ISP-S-14-02A                      Classified Annex to the Inspection of Embassy Sofia, Bulgaria
 ISP-S-14-03A                      Classified Annex to the Inspection of Embassy Budapest, Hungary
 ISP-S-14-04A                      Classified Annex to the Inspection of Embassy Panama City, Panama
 ISP-S-14-05A                      Classified Annex to the Inspection of Embassy San Salvador, El Salvador
 ISP-S-14-07A                      Classified Annex to the Inspection of Embassy Manama, Bahrain




                                                                                                                             31
     APPENDIX 3: SAVINGS AND MORE
     EFFECTIVE USE OF RESOURCES

     TABLE 1: OIG REPORTS WITH QUESTIONED COSTS
                                                                                   Questioned       Unsupported
                                                                                     Costs             Costs
                                                                      No. of       (Dollars in       (Dollars in
     Type of Report                                                  Reports       Thousands)       Thousands)

     A.                                                                 121          $132,2241          $41,6331
             For which no management decision had been made
             by the commencement of the reporting period

     B.      Which were issued during the reporting period

             Audits                                                      0                  $0                $0


             Inspections                                                                    $0                $0
             Total issued during the reporting period                    0                  $0                $0
             Subtotals (A+B)                                            12           $132,224           $41,633

     C.      For which a management decision was made                    4                $311                $6
             during the reporting period
             (i) dollar value of disallowed costs                        2                 $52                $6
             (ii) dollar value of costs not disallowed                   2                $259               N/A

     D.      For which no management decision has been                   11           $131,913           $41,627
             made by the end of the reporting period

     E.      Reports for which no management decision                    11           $131,913           $41,627
             was made within six months of issuance

     1
         Final amounts in the previous Semiannual Report were adjusted based on updated information and analysis of
         open recommendations.




32
TABLE 2: OIG REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE



                                                                                  No. of        Dollars (in
Type of Report                                                                   Reports        Thousands)

A.     For which no management decision had been made by the commence-              251             $275,0551
       ment of the reporting period

B.     Which were issued during the reporting period

       Audits                                                                        0                     $0


        Inspections                                                                                        $0
                                                                                                      $2,5002
       Inspection of the Bureau of Administration, Global Information            		
       Services, Office of Information Programs and Services (ISP-I-12-54)
                                                                                                          $25
       Inspection of Embassy of Panama City, Panama (ISP-I-14-04A)


       Subtotals (A+B)                                                              26              $277,580

C.     For which a management decision was made                                                      $17,5162
       during the reporting period
       (i) dollar value of recommendations that were agrred to by management                         $13,8472

       (ii) dollar value of recommendations that were not agreed to by                                 $3,669
       management

D.     For which no management decision has been                                    23              $260,044
       made by the end of the reporting period

E.     Reports for which no management decision                                     21              $259,444
       was made within six months of issuance




1
     Final amounts in the previous Semiannual Report to the Congress were adjusted based on updated information and
     an analysis of open recommendations. Does not include $2.5 million in funds included in C(i).
2
     Includes $2.5 million in funds identified as savings by the Department reported to OIG as a result of
     OIG’s ecommendation in a report issued in a prior reporting period (ISP-I-12-54, Inspection of the Bureau of
     Administration, Global Information Services, Offices of Information Programs and Services).




                                                                                                                      33
     TABLE 3: OFFICE OF MANAGEMENT AND BUDGET CIRCULAR
     A-133 AUDITS


     Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
     Governments, and Non-Profit Organizations, establishes audit requirements for state and
     local governments, colleges and universities, and nonprofit organizations receiving Federal
     awards. Under this circular, covered entities that expend $500,000 or more a year in Federal
     funds must obtain an annual organization-wide “single audit” that includes the entity’s
     financial statements and compliance with Federal award requirements. These audits are
     conducted by non-Federal auditors, such as public accounting firms and state auditors.
     OIG reviews selected audit reports for findings and questioned costs related to Department
     awards and to ensure that the reports comply with the requirements of OMB Circular A-133.
     OIG’s oversight of non-Federal audit activity informs Federal managers about the sound-
     ness of the management of Federal programs and identifies any significant areas of internal
     control weaknesses, noncompliance, and questioned costs for resolution or follow-up.
     During this reporting period, OIG’s Office of Audits reviewed 16 OMB Circular A-133
     audit reports covering $1.3 billion in Federal funds. Of this amount, Department funds
     totaled $739 million. Eleven of the 16 reports documented the awardees’ lack of internal
     controls and noncompliance with Federal requirements, including weaknesses related to
     segregation of duties, cash management, financial reporting, sub-recipient monitoring,
     computing cost-share amounts, payroll reporting, timekeeping, and audit report submissions.
     OIG also referred questioned costs of $628,469 to Department program officials for resolu-
     tion or follow-up. Table 3 summarizes OIG’s reviews of non-Federal audits conducted during
     this reporting period.




34
           Table 3: Inspector-General-Referred A-133 Audit Reports With
                                 Questioned Costs

                                                                                Questioned
                                                                              Costs (Dollars
                                                             No. of Reports   in Thousands)

A.   For which no management decision had been made by the                0            $0
     commencement of the reporting period


B.   Issued during the reporting period                               11          $628,469


     Subtotal Questioned Costs (A+B)                                  11         $628,469

C.   For which a management decision was made
     during the reporting period
     (i) dollar value of disallowed costs                                              $0
     (ii) dollar value of costs not disallowed                                         $0


     Total Management Decisions                                                        $0


D.   For which no management decision had been made                  11          $628,469
     by the end of the reporting period




                                                                                               35
          TABLE 4: DEFENSE CONTRACT AUDIT AGENCY AUDITS
          The Department’s Bureau of Administration, Office of Logistics Management, Office of
          Acquisitions Management (A/LM/AQM) provided information that pertains to audits
          of contracts awarded by the Department. AQM’s Business Operations Division, Quality
          Assurance Branch, in collaboration with the Office of Inspector General, is responsible
          for initiating and coordinating audits with the Defense Contract Audit Agency (DCAA)
          in support of the contracting officers. OIG did not verify, or otherwise audit, the values
          shown in Table 4 for the information A/LM/AQM provided.


                                   DCAA Audit Reports With Questioned Costs

                                                                                            Questioned
                                                                            Number of     Costs (Dollars
                                                                             Reports      in Thousands)
             For which no management decision had been made by the
     A.                                                                             15    $142,891,763
             commencement of the reporting period


     B.      Issued during the reporting period

                                                                                            $1,347,883
             Independent Audit of Triple Canopy, Inc. (TCI) Request for
             Equitable Adjustment (REA) for Contract No. SAQMMA-
             10-D0104, Task Order No. 2011-0005 dated April 3, 2013
             (DCAA Report No. 2013T1720001, February 12, 2014 Audits

             Independent Audit of Triple Canopy, Inc. (TCI) Partial                         $5,012,691
             Termination Proposal for Contract No. SAQMMA-10-D0104,
             Task Order 0005 dated April 3, 2013 (DCAA Report No.
             2013T17100001, February 19, 2014)

             Total Issued During the Reporting Period                               2       $6,360,574
             Subtotal Questioned Costs (A+B)                                       17     $149,252,337

     C.      For which a management decision was made
             during the reporting period
             (i) dollar value of disallowed costs                                   7      $82,312,854
             (ii) dollar value of costs not disallowed                              6      $57,508,234


             Total Management Decisions                                            11     $139,821,088

     D.      For which no management decision had been                                      $9,431,249
             made by the end of the reporting period




36
APPENDIX 4: RESOLUTION OF
REPORTS AND RECOMMENDATIONS

SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
PENDING FINAL ACTION

Report          Rec.   Report Title                                                First
Number          No.    Recommendation Summary                                      Reported
AUD-IQO-07-20          Review of DynCorp International, LLC, Contract Number         1/07
                       S-LMAQM-04-C-0030, Task Order 0338, for the Iraqi Police
                       Training Program Support (Joint audit with the Special
                       Inspector General for Iraq Reconstruction)
                  2    OIG recommended the Office of Acquisitions
                       Management seek reimbursement from DynCorp for
                       the improperly authorized payment of $4.2 million that
                       represents contractually unauthorized work directed
                       by the Iraqi Ministry of Interior. This work included
                       the relocation of the residential camp, the manufacture
                       of additional VIP trailers, and the construction of an
                       Olympic-size swimming pool.
AUD-IQO-09-25          Audit of the Design and Construction of the New Embassy       10/09
                       Compound in Baghdad, Iraq
                  1    OIG recommended that the Contracting Officer, Bureau
                       of Administration, Office of Logistics Management,
                       attempt to recover $4.6 million from First Kuwaiti
                       Trading and Contracting for the infrastructure contract
                       to make the necessary corrections to the safe areas in
                       the New Embassy Compound.
                  2    OIG recommended that the Contracting Officer, Bureau
                       of Administration, Office of Logistics Management,
                       attempt to recover $14 million for the housing, infra-
                       structure, support facilities, and the chancery contracts
                       from First Kuwaiti Trading and Contracting to perform
                       the necessary design and retrofit of seismic bracing in
                       the New Embassy Compound.




                                                                                              37
     Report   Rec.   Report Title                                                 First
     Number   No.    Recommendation Summary                                       Reported
                4    OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover $1.7 million for contracts from First
                     Kuwaiti Trading and Contracting for the housing, infra-
                     structure, support facilities, and the chancery contracts
                     so that the necessary repairs to the exterior walls and
                     walkway and road surfaces can be made.
                6    OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover approximately $500,000 from First
                     Kuwaiti Trading and Contracting for the infrastructure
                     contract to increase the penthouse size and air flow
                     through the louvers of the Utility Building.
                7    OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover approximately $11 million from First
                     Kuwaiti Trading and Contracting for the infrastructure
                     contract to compensate the Department of State for
                     additional operating costs that will be incurred because
                     the configuration of the Utility Building/Generator Plant
                     was changed from the 10 2-megawatt configuration to
                     18 1-megawatt generators.
                8    OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover between $4.2 million and $4.4 mil-
                     lion from First Kuwaiti Trading and Contracting for the
                     infrastructure contract to correct all deficiencies to the
                     electrical wiring, control, and distribution systems at
                     the New Embassy Compound.
                9    OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover an estimated $500,000 from First
                     Kuwaiti Trading and Contracting for the infrastructure
                     contract so that the necessary functions can be added
                     to the building automation system at the New Embassy
                     Compound.
                10   OIG recommended that the Contracting Officer, Bureau
                     of Administration, Office of Logistics Management,
                     attempt to recover $4.6 million from First Kuwaiti
                     Trading and Contracting to correct fire system defi-
                     ciencies for the staff diplomatic apartments ($3.5 mil-
                     lion for the housing contract) and repair the water main
                     distribution system joints ($1.1 million for the infra-
                     structure contract).




38
Report         Rec.   Report Title                                               First
Number         No.    Recommendation Summary                                     Reported
                 11   OIG recommended that the Contracting Officer, Bureau
                      of Administration, Office of Logistics Management,
                      attempt to recover approximately $1.5 million from
                      First Kuwaiti Trading and Contracting for the infra-
                      structure and housing contracts to correct deficiencies
                      in the plumbing traps at the New Embassy Compound.
                 12   OIG recommended that the Contracting Officer, Bureau
                      of Administration, Office of Logistics Management,
                      attempt to recover approximately $33 million that
                      was paid to First Kuwaiti Trading and Contracting to
                      perform and document the required design work for the
                      New Embassy Compound Baghdad contracts.
                 13   OIG recommended that the Contracting Officer, Bureau
                      of Administration, Office of Logistics Management,
                      attempt to recover approximately $38 million for the
                      housing, infrastructure, support facilities, chancery,
                      and pre-engineered buildings to compensate the U.S.
                      Government for the higher future maintenance costs
                      and negotiate a settlement with First Kuwaiti Trading
                      and Contracting to fund the additional long-term main-
                      tenance costs.
                 14   OIG recommended that the Contracting Officer, Bureau
                      of Administration, Office of Logistics Management,
                      attempt to recover approximately $3.8 million for the
                      housing, infrastructure, site facilities, and chancery
                      contracts that First Kuwaiti Trading and Contracting did
                      not perform or that it performed incorrectly related to
                      commissioning activities.
MERO-I-11-05          Performance Evaluation of PAE Operations and Maintenance     1/11
                      Support at Embassy Kabul, Afghanistan
                 2    OIG recommended that the Bureau of Administration
                      seek reimbursement of $193,600 from PAE for award
                      fees paid for all four quarters of the base year of the
                      contract (September 2005–September 2006), since
                      performance criteria had not yet been established or
                      authorized for that year.
                 3    OIG recommended that the Bureau of Administration
                      seek reimbursement of $41,730 from PAE for award fees
                      granted based on points earned for training in option
                      years 1–3 (September 2006–September 2009), since all
                      training-related work was completed at the end of the
                      base year (September 2005–September 2006).
                 12   OIG recommended that the Bureau of Administration
                      seek reimbursement of $248,820 from PAE for escort
                      services invoiced and paid for, but not rendered, from
                      March 2009 through June 2010.



                                                                                            39
     Report         Rec.   Report Title                                                       First
     Number         No.    Recommendation Summary                                             Reported
                      16   OIG recommended that the Bureau of Administration modify
                           the PAE contract to include Federal Acquisition Regulation
                           clause 52.222-50 (Combating Trafficking in Persons).
     MERO-I-11-02          Performance Evaluation of PAE Operations and Maintenance             2/11
                           Support for the Bureau of International Narcotics and
                           Law Enforcement Affairs’ Counternarcotics Compounds in
                           Afghanistan
                      6    OIG recommended that the Bureau of International Narcotics
                           and Law Enforcement Affairs, in coordination with Embassy
                           Kabul and in consultation with the Drug Enforcement
                           Administration, evaluate the physical security requirements
                           at the Kabul counternarcotics compound.
                      7    OIG recommended that the Office of Acquisitions Management
                           require PAE to incorporate engineering data into the main-
                           tenance and operations support plan for the counternarcot-
                           ics compound in Kunduz, resolve construction deficiencies
                           in the laundry facility and kitchen, and assess the electric
                           power needs of the compound before purchasing new diesel
                           generators.
                      9    OIG recommended that the Bureau of International Narcotics
                           and Law Enforcement Affairs ensure all guards at the coun-
                           ternarcotics compound in Kunduz are familiar with standard
                           operating procedures for security and that guards are getting
                           sufficient rest and days off.
     AUD-CG-11-30          DOD and DOS Need Better Procedures To Monitor and Expend             7/11
                           DOD Funds for the Afghan National Police Training Program
                     A.1   OIG recommended that the Executive Director, Bureau of
                           International Narcotics and Law Enforcement Affairs, in coor-
                           dination with the Chief Financial Officer, Bureau of Resource
                           Management, return DOD funds of $15.56 million that were
                           outside the scope of the reimbursable agreement by August
                           31, 2011. Specifically, return and document the following
                           amounts:
                           a. $2.59 million potentially moved to Department of State
                           administrative costs.
                           b. $1.15 million obligated for the Department of Justice Federal
                           Prosecutors Program.
                           d. $11.81 million obligated for a DynCorp equitable adjustment
                           for contract task order S-AQMPD-04F-0460, awarded in 2004
                           before the 2006 agreement.




40
Report   Rec.   Report Title                                                       First
Number   No.    Recommendation Summary                                             Reported
          A.2   OIG recommended that the Executive Director, Bureau
                of International Narcotics and Law Enforcement Affairs,
                in coordination with the Contracting Officer, Bureau of
                Administration, Office of Logistics Management, Office of
                Acquisitions Management:
                a. Determine how much of the $68.21 million of unexpended
                obligations remaining on task order S-AQMPD-05F-4305 can
                be deobligated. As part of the review, include the DoD obliga-
                tion amount that DynCorp certified as available for deobliga-
                tion, as well as an analysis on the remaining unexpended obli-
                gation amounts. In addition, provide the Department of State,
                Office of Inspector General, supporting documentation for the
                remaining amount of the $68.21 million that the Bureau of
                International Narcotics and Law Enforcement Affairs identi-
                fies as still valid.
                b. Determine how much of the $23.04 million of DOD unex-
                pended obligations remaining on the in-country air support
                contract (S-AQMPD-05-C-1103) can be deobligated. In addi-
                tion, provide the Department of State, Office of Inspector
                General, supporting documentation for the remaining
                amount of the $23.04 million that the Bureau of International
                Narcotics and Law Enforcement Affairs identifies as still valid.
          A.3   OIG recommended that the Executive Director, Bureau
                of International Narcotics and Law Enforcement Affairs,
                provide supporting documentation to the Department of State
                Inspector General by July 29, 2011, for the $2.25 million of
                unsupported obligations identified in this report or return
                the $2.25 million to DOD by August 30, 2011. Specifically, the
                Executive Director should review and, if necessary, deobligate
                the following amount:
                a. $1.65 million obligated for Department of State sala-
                ries using DOD funds provided in the 2006 reimbursable
                agreement.




                                                                                              41
     Report   Rec.    Report Title                                                          First
     Number   No.     Recommendation Summary                                                Reported
               A.5    OIG recommended that the Executive Director, Bureau of
                      International Narcotics and Law Enforcement Affairs:
                      a. Return to DOD and properly record the $3.99 million
                      of unobligated DOD funds by August 31, 2011, unless INL
                      provides documentation to the Under Secretary of Defense for
                      Policy and the Under Secretary of Defense (Comptroller)/Chief
                      Financial Officer, DOD, and DOD officials agree that the obliga-
                      tions were within the scope of the reimbursable agreements.
                      b. Develop, implement, and document adequate controls to
                      ensure that the Bureau of International Narcotics and Law
                      Enforcement Affairs uses DOD funds for specific purposes in
                      accordance with laws and documents the appropriate use.
                      Specifically, officials should:
                      1. Designate the appropriate offices responsible for ensuring
                      that the obligation directly relates to the requirements in the
                      reimbursable agreements.
                      2. Retain documentation supporting that the obligation is in
                      compliance with the reimbursable agreement requirements.
               A.6    OIG recommended that the Director, Bureau of Administration,
                      Office of Logistics Management, Office of Acquisitions
                      Management, require all contracting officers and supporting
                      staff to take an appropriations law training class.
               A.9    OIG recommended that the Executive Director, Bureau of
                      International Narcotics and Law Enforcement Affairs; Under
                      Secretary of Defense for Policy; and Under Secretary of Defense
                      (Comptroller)/Chief Financial Officer, DOD, reach an agreement
                      as to whether the $9.50 million obligation for a United Nations Law
                      and Order Trust Fund–Afghanistan contribution was appropriately
                      obligated. If officials do not reach an agreement, the Bureau of
                      International Narcotics and Law Enforcement Affairs should
                      return the $9.50 million of DOD funds obligated for a United
                      Nations Law and Order Trust Fund–Afghanistan contribution.
              C.2.b   OIG recommended that the Assistant Secretary of State,
                      Bureau of International Narcotics and Law Enforcement
                      Affairs, in coordination with the contracting officer, Bureau
                      of Administration, Office of Logistics Management, Office of
                      Acquisitions Management, for the Civilian Police (CIVPOL)
                      contract, review the approximately $9.4 million in questioned
                      costs identified by the Defense Contract Audit Agency (DCAA)
                      and take action to recover those costs.




42
Report         Rec.   Report Title                                                           First
Number         No.    Recommendation Summary                                                 Reported
AUD-CG-11-44          Afghan National Police Training Program Would Benefit From               8/11
                      Better Compliance With the Economy Act and Reimbursable
                      Agreements
                 1    OIG recommended that the Assistant Secretary of State, Bureau
                      of International Narcotics and Law Enforcement Affairs, in coor-
                      dination with the Assistant Secretary of State, Bureau of Resource
                      Management and Chief Financial Officer:
                      a. Identify and return to DOD the amount of Afghanistan
                      Security Forces Fund appropriations that were improperly
                      obligated and spent on the Justice Sector Support Program,
                      Corrections System Support Program, and Counter Narcotics
                      Advisory Teams. These costs would include, but not be limited
                      to, life support, salaries, vehicles, fuel, maintenance, personal
                      protective equipment, uniforms, immunizations, and travel.
                      b. Review all available supporting documentation related to the
                      Corrections System Support Program (CSSP) security salaries
                      and recover any overpayments related to the $0.37 million paid
                      to DynCorp for CSSP security salaries and identify and recover
                      any additional payments made for CSSP security salaries on
                      task orders 4305 and 5375.
                      c. Determine whether the Bureau of International Narcotics
                      and Law Enforcement Affairs improperly obligated
                      DOD-provided Afghanistan Security Forces Fund appropria-
                      tions for any other INL programs that were receiving support
                      on the DOD-funded task orders. If so, identify and return to
                      DOD the applicable Afghanistan Security Forces Fund appro-
                      priations by September 30, 2011.
                 3    OIG recommended that the Assistant Secretary of State, Bureau
                      of Resource Management and Chief Financial Officer, and the
                      Director, Defense Security Cooperation Agency, perform a joint
                      investigation of the potential Antideficiency Act violations for the
                      $1.05 million of funds obligated for Personal Services Contracts
                      and the estimated $75.60 million of funds obligated without
                      considering Economy Act and reimbursable agreement limitations.
AUD-IP-12-02          Audit of Bureau of East Asian and Pacific Affairs Compliance             10/11
                      With Trafficking in Persons Requirements
                 1    OIG recommended that the Office to Monitor and Combat
                      Trafficking in Persons include, in the Foreign Affairs Manual,
                      the U.S. Government policy regarding trafficking in persons
                      (TIP) to include the definition of TIP activity and informa-
                      tion on the prohibition against involvement in acts of TIP for
                      Department of State personnel and contractors, the associated
                      penalties for violations, and the mechanism to report such
                      violations.




                                                                                                        43
     Report          Rec.   Report Title                                                      First
     Number          No.    Recommendation Summary                                            Reported
                       2    OIG recommended that the Office to Monitor and Combat
                            Trafficking in Persons, in consultation with the Office of the
                            Legal Advisor and the Director General of Human Resources,
                            develop and include a trafficking in persons policy in the
                            Department of State Standards of Conduct.
                       4    OIG recommended that the Office to Monitor and Combat
                            Trafficking in Persons, in consultation with the Foreign
                            Service Institute and the Director General of Human
                            Resources, expand TIP training to all Department of State
                            employees, to include increasing awareness of the U.S.
                            Government’s zero tolerance policy towards TIP and reducing
                            the incidence of TIP activity involving contractor personnel
                            and employees who represent the United States abroad.
     AUD-IP-12-03           Improved Contract Documentation and Monitoring by                   11/11
                            the Regional Procurement Support Office Are Needed for
                            Construction Projects Associated With the President’s
                            Emergency Plan for AIDS Relief (PEPFAR)
                       3    OIG recommended that the Regional Procurement Support
                            Office in Frankfurt, Germany, review existing PEPFAR
                            construction contracts and reclaim any contingency costs
                            inappropriately included in contracts as practicable.
                       5    OIG recommended that the Regional Procurement Support
                            Office in Frankfurt, Germany, require posts with substantial
                            planned costs for PEPFAR construction projects to obtain a
                            technical advisor with construction expertise for monitoring
                            construction contracts.
     AUD-HCI-12-30          Audit of Department of State Drug-Free Workplace Program Plan       2/12
                       1    OIG recommended that the Bureau of Human Resources
                            develop and implement drug testing procedures for
                            Department employees serving in sensitive positions overseas.
                       2    OIG recommended that the Bureau of Human Resources, in
                            coordination with the Office of Medical Services and the Office
                            of the Legal Adviser, develop a random sampling methodology,
                            obtain approval from the Interagency Coordinating Group
                            Executive Committee to employ the methodology, and imple-
                            ment random drug testing as prescribed by the Department
                            Drug-Free Workplace Program Plan.




44
Report           Rec.   Report Title                                                         First
Number           No.    Recommendation Summary                                               Reported
AUD-MERO-12-29          Evaluation of the Antiterrorism Assistance Program for                 4/12
                        Countries Under the Bureaus of Near Eastern Affairs and South
                        and Central Asian Affairs
                   1    OIG recommended that the Bureau of Diplomatic Security, in
                        coordination with the Bureau of Counterterrorism, establish
                        a monitoring and evaluation system that includes clearly
                        defined and measurable outcome-oriented strategic goals and
                        program objectives; measurable performance indicators that
                        clearly link to strategic goals and program objectives; baseline
                        data and annual performance targets for each indicator; and
                        descriptions of how, when, and by whom performance data
                        will be collected, analyzed, and reported.
                   2    OIG recommended that the Bureau of Diplomatic Security, in
                        coordination with the Bureau of Counterterrorism, develop
                        a definition for what constitutes a developmental Anti-
                        Terrorism Assistance (ATA) program, consistently apply that
                        definition to country programs, and ensure that partner coun-
                        try sustainability timelines are established for developmental
                        ATA programs.
AUD-MERO-12-43          Evaluation of Invoices and Payments for the Embassy Baghdad            8/12
                        Operations and Maintenance Contract
                   3    OIG recommended that the Bureau of Administration, Office of
                        Logistics Management, Office of Acquisitions Management, direct
                        the contracting officer to conduct a comprehensive review of
                        all contractor invoices before the Embassy Baghdad operations
                        and maintenance contract is closed to determine whether the
                        contractor submitted adequate supporting documentation for all
                        reimbursable costs, to include the $1.7 million identified in this
                        report. If not, the contracting officer should request supporting
                        documentation from the contractor and determine whether the
                        costs were allowable under the contract terms. If the reimbursable
                        costs cannot be supported or are not allowable under the terms of
                        the contract, the costs should be recovered from the contractor.
AUD-SI-12-49            Outline for Action: Physical Security Concerns at Embassy Quito        9/12
                   4    OIG recommended that Embassy Quito consider options to
                        mitigate the setback deficiency.
AUD-HCI-13-02           Audit of U.S. Department of State Use of Short-Term Leases             12/12
                        Overseas
                   1    OIG recommended that the Bureau of Overseas Buildings
                        Operations revise volumes 15 of the Foreign Affairs Manual
                        and Foreign Affairs Handbook to designate all noncapital
                        leases as operating leases, regardless of lease duration, in
                        accordance with Statements of Federal Financial Accounting
                        Standards.




                                                                                                        45
     Report       Rec.   Report Title                                                      First
     Number       No.    Recommendation Summary                                            Reported
                    2    OIG recommended that the Bureau of Overseas Buildings
                         Operations revise volumes 15 of the Foreign Affairs Manual and
                         the Foreign Affairs Handbook to apply current funding and cost
                         sharing requirements associated with short-term leases to all
                         operating leases.
                    4    OIG recommended that the Bureau of the Comptroller and
                         Global Financial Services, Office of International Cooperative
                         Administrative Support Services, in coordination with the
                         Bureau of Overseas Buildings Operations, revise volume 6 of
                         the Foreign Affairs Handbook to account for the revisions in
                         volume 15 of the Foreign Affairs Manual regarding leases.
                    5    OIG recommended that the Bureau of Diplomatic Security,
                         in coordination with the Bureau of Overseas Buildings
                         Operations, revise volumes 12 of the Foreign Affairs Manual
                         and the Foreign Affairs Handbook to account for the revisions
                         in volume 15 of the Foreign Affairs Manual regarding leases.
                    6    OIG recommended the Bureau of Overseas Buildings
                         Operations establish guidelines and procedures that require
                         posts to track and report on make-ready funds expended for
                         individual properties to help ensure funds are expended for
                         authorized purposes and do not exceed the Department of
                         State limitation.
     AUD-                Compliance Follow-up Review of Department of State Internal         12/12
     MERO-13-18          Controls Over the J. William Fulbright Scholarship Fund in
                         Pakistan
                    1    OIG recommended that the Bureau of Educational and
                         Cultural Affairs, in coordination with Embassy Islamabad,
                         develop a process to ensure that the United States Educational
                         Foundation in Pakistan complies with the internal control
                         requirements of Finance and Accounting Manual Section 4.2 to
                         include ensuring segregation of duties, restricting administra-
                         tor-level access, and establishing comprehensive audit trails.
     AUD-                Audit of Bureau of Diplomatic Security Worldwide Protective         3/13
     MERO-13-25          Services Contract – Task Order 5 for Baghdad Movement Security
                    1    OIG recommended that the Bureau of Diplomatic Security and
                         the Bureau of Administration, Office of Logistics Management,
                         Office of Acquisitions Management, institute procedures
                         to ensure that a needs-based analysis is conducted and
                         documented prior to establishing all Worldwide Protective
                         Services task order staffing requirements and prior to exercis-
                         ing task order options.




46
Report   Rec.   Report Title                                                      First
Number   No.    Recommendation Summary                                            Reported
           2    OIG recommended that the Bureau of Diplomatic Security and
                the Regional Security Office in Baghdad establish a process
                to ensure that the contractor’s daily movement detail reports
                and muster sheets are reviewed by the onsite contracting
                officer’s representative to monitor actual staff usage against
                the number of staff paid.
           3    OIG recommended that the Bureau of Diplomatic Security,
                in coordination with the Bureau of Administration, Office of
                Logistics Management, Office of Acquisitions Management,
                establish a process to ensure that Worldwide Protective
                Services contract staffing requirements are adjusted when
                needs change during the contract performance period.
           4    OIG recommended that the Bureau of Administration, Office
                of Logistics Management, Office of Acquisitions Management,
                direct the contracting officer to ensure that invoices are sent
                to contracting officer’s representatives or government techni-
                cal monitors at Embassy Baghdad for review to verify that the
                contractor is invoicing only for goods received and services
                delivered.
           6    OIG recommended that the Bureau of Administration, Office
                of Logistics Management, Office of Acquisitions Management,
                recover the $133,190 paid to the contractor for unallowable
                and erroneously approved costs.
           7    OIG recommended that the Bureau of Administration, Office
                of Logistics Management, Office of Acquisitions Management,
                direct the contracting officer to conduct a comprehensive
                review of all contractor invoices and supporting documenta-
                tion to determine whether the contractor submitted adequate
                supporting documentation for all reimbursable costs, includ-
                ing the $1,642,537 identified in this report. If the documenta-
                tion was not submitted, the contracting officer should request
                supporting documentation from the contractor and determine
                whether the costs were allowable under the contract terms. If
                the reimbursable costs cannot be supported or are not allow-
                able under the terms of the contract, the Department of State
                should recover these funds from the contractor.




                                                                                             47
     SUMMARY OF OFFICE OF AUDIT REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS
     Report Number: AUD-CG-11-30
     Subject: Department of Defense Funds Provided to Department of State for the Afghan
     National Police
     Date Issued: July 11, 2011.
     Reason for not being resolved: OIG recommended that the Department perform
     a joint investigation with the Defense Security Cooperation Agency of potential
     Antideficiency Act violations of funds obligated outside the scope of the reimburs-
     able agreements. The Bureau of Comptroller and Global Financial Services was
     requested to respond to recommendations by February 6, 2012. However, OIG had
     not received a response as of the end of this reporting period. Therefore, six recom-
     mendations (Nos. A.8.a, b, c, d, e, and f) remain unresolved.
     Projected date of resolution: Unknown.

     Report Number: AUD/CG-11-44
     Subject: Afghan National Police Training Program Would Benefit From Better
     Compliance With the Economy Act and Reimbursable Agreements
     Date Issued: August 25, 2011.
     Reason for not being resolved: OIG recommended that the Department of State
     develop and implement policies and procedures to ensure that any appropriation
     limitations on funds transferred to other U.S. Government agencies were taken into
     account before obligating funds for personal services contracts and develop policies
     and procedures to ensure that, before obligating funds under an Economy Act order,
     the Department validated that the ordering agency had the necessary authority to
     obligate funds for those purposes. The Bureau of International Narcotics and Law
     Enforcement Affairs was requested to respond to the recommendations by
     January 9, 2012. However, OIG had not received a response as of the end of
     this reporting period. Therefore, two recommendations (Nos. 1.d and e) remain
     unresolved.
     Projected date of resolution: Unknown.




48
                ______________________________________

Report Number: AUD-SI-12-36
Subject: Limited-Scope Audit of Department of State Management of the Afghanistan
Civilian Uplift
Date Issued: May 31, 2012.
Reason for not being resolved: OIG recommended that the Department of
State codify, in the Foreign Affairs Manual, the practice of updating the Global
Employment Management System for all Department personnel by changing the
organization code to the code for the newly assigned posts effective on the date that
the personnel leave post. OIG also recommended that the Department direct overseas
posts and domestic offices that have civilian personnel being assigned to Afghanistan
(or to another post where restricted funds are being used) to immediately update the
Global Employment Management System by changing the organization code to the
code of the newly assigned posts for incoming and departing Afghanistan civilian
uplift personnel. The Bureau of Human Resources was requested to respond to the
recommendation by July 8, 2013. However, OIG had not received a formal response
as of the end of this reporting period. Therefore, two recommendations (Nos. 1 and
3) remain unresolved.
Projected date of resolution: Unknown.
Report Number: AUD-MERO-13-20
Subject: Evaluation of Emergency Action Plans for U.S. Mission Afghanistan
Date Issued: March 21, 2013
Reason for not being resolved: OIG recommended that Embassy Kabul establish
formal agreements on the roles and responsibilities of non-Department of State
law-enforcement agencies during events requiring implementation of the Emergency
Action Plan. On March 10, 2014, Embassy Kabul responded that an informal
information memorandum and Post Agreement had been completed, considering it
to be sufficient action. OIG does not agree that these documents constitute accept-
able alternative actions that are sufficient to address OIG’s concerns. OIG holds the
position that other law-enforcement entities that wish to participate in responding
to events requiring implementation of the Emergency Action Plan should state so
in advance of an actual emergency and should establish formal agreements with the
Embassy that address their specific roles and responsibilities when responding to an
emergency. OIG also recommended that the Bureau of Diplomatic Security establish
a process to validate the adequacy of Emergency Action Plans at high-threat posts,
such as Embassy Kabul, by reviewing and assessing the resources listed in the plans
for addressing each type of Emergency Action Plan emergency. As of September 10,
2013, the Bureau of Diplomatic Security had not developed a corrective action plan
but had only provided copies of processes that OIG found insufficient at the time of
the audit. Therefore, two recommendations (Nos. 6 and 8) remain unresolved.

Projected date of resolution: June 2014.


                                                                                        49
     Report Number: AUD-FM-13-29

     Subject: Audit of Department of State Application of the Procurement Fee To Accomplish
     Key Goals of Procurement Services of the Bureau of International Narcotics and Law
     Enforcement Affairs Corrections Systems Support Program in Afghanistan
     Date Issued: May 4, 2013.
     Reason for not being resolved: OIG recocommended that the Bureau of
     Administration, in coordination with the Bureau of Budget and Planning, create
     a separate point limitation within the Working Capital Fund for the Procurement
     Shared Services (PPS) service center. Both the Bureau of Administration and the
     Bureau of Budget and Planning disagreed with this recommendation, stating the
     Bureau of Administration had “its own unique allotment code” that would allow
     the Bureau of Administration to “track all revenue, obligations, liquidations, and
     carry forward” amounts. OIG’s intent was to ensure that funds collected by the PSS
     service center were used for acquisition-related needs, which is a high priority within
     the Department. OIG has requested that the Department propose an alternative
     methodology that fulfills the intent of the recommendation. OIG also recommended
     that the Bureau of Administration identify significant procurement processes to
     map and develop standard operating procedures that currently are not included
     in available procedures. Although the Bureau of Administration stated agreement
     with OIG’s recommendation, it did not propose any additional corrective actions in
     response. Therefore, two recommendations (Nos. 1 and 18) remain unresolved.
     Projected date of resolution: August 2014.


     Report Number: AUD-MERO-13-37

     Subject: Audit of the Bureau of International Narcotics and Law Enforcement Affairs
     Corrections Systems Support Program in Afghanistan
     Date Issued: September 19, 2013.
     Reason for not being resolved: OIG recommended that the Bureau of International
     Narcotics and Law Enforcement Affairs determine the costs and then develop
     and implement a sustainability strategy in partnership with the Government of
     the Islamic Republic of Afghanistan to ensure the sustainability of the Afghan
     General Directorate of Prisons and Detention Centers (GDPDC) and the Afghan
     corrections system once international funding is removed, as required by the
     “Administrator’s Sustainability Guidance for USAID in Afghanistan” and the
     Consolidated Appropriations Act of 2012. In its response to the draft report, the
     Bureau stated that it partially concurred with the recommendation and that it
     was working with civil-society partners to engage in long-term planning and was
     actively working to have the Afghan government assume more responsibility for
     many of its programs. However, the Bureau did not address the need to determine


50
the costs to operate the GDPDC and to build a sustainability strategy with respect
to those costs. The Bureau of International Narcotics and Law Enforcement Affairs
was requested to respond to the recommendation by October 18, 2013. However,
OIG had not received a response as of the end of this reporting period. Therefore,
Recommendation 2 remains unresolved.
Projected date of resolution: July 2014.

REVISED MANAGEMENT DECISIONS
None.

MANAGEMENT SUCCESS IN RESOLVING AND
IMPLEMENTING RECOMMENDATIONS
Audit of of Grant Closeout Processes for Selected Department of State Bureaus
(AUD-CG-13-31)

In June 2013, OIG made two recommendations to the Bureau of Educational
and Cultural Affairs (ECA) that it should review expired grants in the Payment
Management System (PMS) as of March 1, 2012, to determine whether the
funds associated with those grants could be deobligated in the Global Financial
Management System and used for other purposes and to subsequently close
those grants in PMS to avoid unnecessary administrative fees. In response to
the recommendations, ECA provided evidence that it had closed 513 awards
and deobligated $14,249,136, with an additional 254 awards still pending
final adjustment action that could result in additional funds being deobligated.
Furthermore, ECA informed OIG that it is now considering this matter one of
its highest priorities and, as such, has (a) tasked a special closeout team within the
Grants Division with oversight of research and ensuring closeout procedures are
performed and has (b) identified the timely closeout of grant awards as a performance
standard included and tracked in the performance plans of all ECA Grants Officers
and support staff.

Compliance Follow-up Audit of Bureau of Oceans and International
Environmental and Scientific Affairs Administration and Oversight of Funds
Dedicated to Address Global Climate Change (AUD-ACF-14-16)

In this December 2013 compliance follow-up audit, OIG modified portions of
recommendations contained in OIG’s July 2012 report Audit of Bureau of Oceans
and International Environmental and Scientific Affairs Administration and Oversight
of Funds Dedicated To Address Global Climate Change (AUD-CG-12-40) and
combined these portions into one recommendation. In its response to the modified
recommendation contained in the compliance follow-up report, the Department’s


                                                                                         51
     Procurement Executive issued Procurement Information Bulletin (PIB) 2014-5,
     “Non-Acquisition Interagency Agreements,” on January 23, 2014. This PIB provides
     Department managers with long-awaited standardized policies and procedures for
     the review and approval of nonacquisition interagency agreements. It also institutes
     a requirement that program offices should make a determination that an interagency
     transfer of money is the best approach to program implementation prior to executing
     a nonacquisition interagency agreement


     SUMMARY OF INSPECTION REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN 6 MONTHS
     Report Number: ISP-I-13-44
     Subject: Special Review of the Accountability Review Process
     Date Issued: September 20, 2013.
     Reason for not being resolved: OIG recommended that the Department
     implement the following recommendations in the Special Review of the
     Accountability Review Board (ARB) Process Report:
        1. Establish guidelines that broaden the committee’s ability to task alternative
           reviews.
        2. Revise regulatory guidance stated in 12 FAM 030, 12 FAM 032, and 1 FAM
           30 to codify a transparent and fully documented review process and institu-
           tionalize the Deputy Secretary for Management and Resources’ responsibility
           for oversight and implementation of ARB recommendations.
        3. Annually task the Under Secretaries and Assistant Secretaries in the
           Department to provide potential nominees to serve on the Accountability
           Review Board.
        4. Create a baseline list of congressional recipients to whom a copy of the
           Secretary’s Report to Congress is delivered.
        5. Develop minimum security standards that must be met prior to occupy-
           ing facilities located in Department-designated high-risk, high-threat
           environments.
        6. Prepare clear guidelines for Accountability Review Boards pertaining to
           the drafting and handling of recommendations dealing with issues of poor
           performance of Department personnel.




52
   7. Develop an annual report to the Deputy Secretary outlining implementation
      of Accountability Review Board recommendations, with an emphasis on
      identifying problems, the way forward, and the impact of the Department’s
      global security program.
OIG is working to seek consensus and effect implementation of the stated recom-
mendations with the Office of Management Policy, Rightsizing and Innovation, and
the Bureaus of Administration and Diplomatic Security.
Projected date of resolution: June 2014.

REVISED MANAGEMENT DECISIONS
None.

MANAGEMENT SUCCESS IN RESOLVING AND
IMPLEMENTING RECOMMENDATIONS

Inspection of Department-Required and Congressionally Mandated
Reports: Assessment of Resource Implications (ISP-I-11-11)

In the October 2010 inspection of Department-Required and Congressionally
Mandated Reports, OIG recommended that the Office of Management Policy,
Rightsizing, and Innovation (M/PRI) direct all missions to document the
approximate cost (to reflect time and pay scales of personnel involved) devoted
to preparation of congressionally mandated and Department-required reports,
and to include this data in the annual budget requests. In response to OIG’s
recommendation, M/PRI surveyed select posts to determine how much time was
spent preparing data and report narratives for five congressionally mandated reports
(Trafficking in Persons, Human Rights Report, International Religious Freedom,
Annual Country Report on Terrorism, and International Narcotics Control Strategy
Report) and four Department-required reports (Global Economic Statecraft, Post
Profile Reports, Residential Property Reports, and Mission Resource Requests).
Based on the data collected, the Trafficking in Persons, the International Religious
Freedom, and the Human Rights Reports were found to be the most redundant.
Following consultations with both the Office to Monitor and Combat Trafficking in
Persons and the Bureau of Democracy, Human Rights, and Labor, additional actions
were taken to further reduce the reporting burden on overseas posts, including
reduction of the time to obtain clearances, linking of the data used in the three
reports, and limitation of the number of questions that must be researched and
answered by posts for the three reports.




                                                                                       53
     Inspection of the Bureau of Administration, Global Information Services,
     Office of Information Programs and Services (ISP-I-12-54)

     In the September 2012 inspection of the Office of Information Programs and
     Services, OIG recommended that the Bureau of Administration postpone the
     consolidation of information technology support services for the entire Office of
     Global Information Services until the bureau has completed an analysis of the
     benefits of such consolidation from cost, resources, funding, and customer-service
     perspectives. In response to OIG’s recommendation, the Department surveyed all
     client end users for feedback, completed an impact assessment on the proposed IT
     consolidation, and conducted a review of cost savings. As a result of IT consolidation,
     cost savings in the amount of $2.5 million was realized based on the elimination of
     redundant contractor support and development costs.


     Inspection of Embassy Lisbon, Portugal and Constituent Posts
     (ISP-I-12-53A)
     In the September 2012 inspection of Embassy Lisbon, OIG recommended the
     elimination of several locally employed staff positions and the closure of Consular
     Agency Funchal, Madeira. Consular Agency Funchal closed on June 7, 2013, result-
     ing in annual cost savings in the amount of $75,000. The abolishment of four
     locally employed staff positions resulted in funds put to better use in the amount of
     $182,298.


     Inspection of Embassy Rabat, Morocco (ISP-I-13-30)
     In the June 2013 inspection report of Embassy Rabat, OIG recommended that
     Embassy Rabat abolish the manager-assistant position in the public affairs section
     of the eligible-family-member program. In response to OIG’s recommendation, the
     Department abolished the local employed staff position, resulting in $53,750 in
     funds put to better use.




54
SIGNIFICANT INSPECTIONS RECOMMENDATIONS
PENDING FINAL ACTION

Report         Rec   Report Title                                                         First
Number         No.   Recommendation Summary                                               Reported
ISP-I-11-55A         Inspection of Embassy Seoul, Korea                                   08/2011
                12   OIG recommended that the Bureau of Overseas Buildings
                     Operations should identify and evaluate the costs associated with
                     the United States Forces Korea’s departure from the Yongsan
                     Garrison and accelerate the construction of Embassy Seoul’s new
                     embassy compound project on the Capital Security Construction
                     Program schedule.
ISP-I-11-23          Review of Department of State Implementation of Jeddah ARB            09/2013
                1    OIG recommended that the Bureau of Overseas Buildings
                     Operations provide compound emergency sanctuaries
                     for employees who work in buildings that do not have an
                     approved safe haven or safe area.
                2    OIG recommended that the Bureau of Overseas Buildings
                     Operations request an increase in funding for the Compound
                     Security Upgrade Program to reflect the additional
                     requirement for compound emergency sanctuaries.
ISP-I-13-24          Review of the Process for Establishing Language Designated            09/2013
                     Positions
                1    OIG recommended that the Bureau of Human Resources require
                     every embassy to provide narrative explaining the rationale
                     behind its recommendations for language designated positions.
                     The narrative should address major factors driving the essential
                     designations such as those outlined in the Bureau of Human
                     Resources’ guidance on English language penetration and the
                     local culture and language, and demonstrate why incumbents
                     have found language skills to be essential to the performance of
                     their duties. It should also identify any new language designation
                     positions that are needed.
                2    OIG recommended that the Bureau of Human Resources
                     prepare a report for the Under Secretary for Political Affairs
                     and the Deputy Secretary for Management and Resources that
                     lists recommended language designated positions by mission;
                     assesses the extent to which the distribution is consistent
                     with U.S. interests; highlights the cost implications of the
                     recommendations; and requests input on the distribution of
                     language designated positions across mission and bureaus.




                                                                                                     55
     Report         Rec   Report Title                                                          First
     Number         No.   Recommendation Summary                                                Reported
                     3    OIG recommended that the Bureau of Budget and Planning
                          determine training costs by language and level and make
                          those costs available to missions, bureaus, Under Secretaries,
                          and deputy secretaries that recommend and approve language
                          requirements.
                     4    OIG recommended that the Bureau of Budget and Planning
                          determine the best means for holding bureaus accountable for the
                          training costs associated with their language designated positions.
                     5    OIG recommended that the Bureau of Human Resources
                          convene a multibureau working group to review the promotion
                          and tenure policies related to language skills, the best way to
                          develop cadres of language-qualified officers in key languages,
                          and the existing Foreign Affairs Manual criteria on language
                          designation.
     ISP-I-13-44A         Special Review of the Accountability Review Process                   09/2013
                     2    OIG recommended that the Office of Management Policy,
                          Rightsizing and Innovation should coordinate with the
                          Permanent Coordinating Committee members to establish
                          guidelines that broaden the committee’s ability to task
                          alternative reviews.
                     4    OIG recommended that the Office of the Under Secretary
                          of State for Management, in coordination with the Office
                          of the Legal Adviser, should amend 12 FAM 030 to codify a
                          transparent and fully documented process for vetting security-
                          related incidents to identify those that do not warrant convening
                          the Permanent Coordinating Committee and ensuring that this
                          information is communicated to the Secretary.
                     10   OIG recommended that the Bureau of Administration should
                          amend 1 FAM 30 to institutionalize the Deputy Secretary
                          for Management and Resources’ responsibility for oversight
                          of implementation of the Accountability Review Board
                          recommendations.
                     11   OIG recommended that the Bureau of Diplomatic Security
                          should amend 12 FAM 032 to reflect the Deputy Secretary for
                          Management and Resources’ oversight responsibility of the Office of
                          Management Policy, Rightsizing and Innovation for implementation
                          of Accountability Review Board recommendations.
                     17   OIG recommended that the Office of the Under Secretary
                          of State for Management, in coordination with the Bureau
                          of Diplomatic Security and Bureau of Overseas Buildings
                          Operations, should develop minimum security standards
                          that must be met prior to occupying facilities located in
                          Department of State-designated high-risk, high-threat
                          environments and include new minimum security standards of
                          occupancy in the Foreign Affairs Handbook as appropriate.




56
Report   Rec   Report Title                                                  First
Number   No.   Recommendation Summary                                        Reported
          19   OIG recommended that the Office of Management Policy,
               Rightsizing and Innovation, in coordination with the
               Bureau of Human Resources and the Office of the Legal
               Adviser, should prepare clear guidelines for Accountability
               Review Boards pertaining to the drafting and handling of
               recommendations dealing with issues of poor performance of
               Department of State personnel.
         20    OIG recommended that the Office of Management Policy,
               Rightsizing and Innovation, in coordination with the Bureau
               of Diplomatic Security and the Bureau of Intelligence and
               Research, should develop an annual report to the Deputy
               Secretary outlining implementation of Accountability Review
               Board recommendations, with an emphasis on identifying
               problems, the way forward, and the impact of the Department
               of State’s global security program.




                                                                                        57
     APPENDIX 5: AUDITS PERFORMED
     BY CONTRACTORS

                                                                                      Type of
     Report Number   Report Title                                 Contractor
                                                                                      Engagement
     AUD-FM-14-01    Independent Accountant’s Report on the       Kearney &           Performance
                     Application of Agreed-Upon Procedures:       Company P.C.        Audit
                     Employee Benefits, Withholdings,
                     Contributions, and Supplemental
                     Semiannual Headcount Reporting Submitted
                     to the Office of Personnel Management
     AUD-IT-14-03    Audit of Department of State Information     Williams, Adley &   Performance
                     Security Program                             Company-DC, LLP     Audit


     AUD-CG-14-09    Independent Auditor’s Report on the          Kearney &           Financial
                     Department of State 2013 and 2012 Special-   Company, P.C.       Statement
                     Purpose Financial Statements

     AUD-FM-14-10    Independent Auditor’s Report on the U.S.     Kearney &           Financial
                     Department of State 2013 and 2012            Company P.C.        Statements
                     Financial Statements
     AUD-FM-14-12    Independent Audistor’s Report on the         Kearney &           Financial
                     International Boundary amd Water             Company P.C.        Statements
                     Commission, United States and Mexico,
                     U.S. Section, 2013 and 2012 Financial
                     Statements
     AUD-FM-14-13    Management Letter Related to the Audit       Kearney &           Financial
                     of the International Boundary and Water      Company P.C.        Statements
                     Commission, United States and Mexico,
                     U.S. Section, 2013 and 2012 Financial
                     Statements




58
APPENDIX 6: PEER REVIEWS OF OIG
OPERATIONS

Peer reviews are conducted of an OIG audit organization’s system of quality control on a
3-year cycle in accordance with the Council of the Inspectors General on Integrity and
Efficiency (CIGIE) Guide for Conducting External Peer Reviews of the Audit Organizations
of Federal Offices of Inspector General, based on requirements in the Government Auditing
Standards. Federal audit organizations can receive a rating of pass, pass with deficiencies,
or fail.
The Office of Audits did not undergo a peer review during this reporting period. The
last Office of Audits peer review was conducted by the Department of the Interior (DOI)
OIG for the reporting period October 1, 2012, to March 31, 2013. The Office of Audits
received a peer review rating of pass. The letter of comment accompanying DOI’s report
contained one recommendation, and the Department of State OIG completed all actions
for the recommendation as of September 3, 2013.
During a prior reporting period (April 1, 2013, to September 30, 2013), the Department
of State OIG conducted a peer review of the system of quality control of the Federal
Deposit Insurance Corporation (FDIC) OIG. FDIC OIG received a peer review rating
of pass. The letter of comment accompanying the system review report contained six
recommendations. Two recommendations are closed, but four recommendations remain
outstanding or have not been fully implemented as of March 31, 2014.
The OIG Office of Investigations (INV) did not have an external peer review of its
investigative operations during this reporting period. The review conducted in September
2011 by the Railroad Retirement Board OIG found the Office of Investigations to be in
compliance with the CIGIE standards for internal safeguards and management proce-
dures. The Railroad Retirement Board OIG did not make any formal recommendations
in its report. INV’s next peer review will be conducted by the Tennessee Valley Authority
during the next reporting period.




                                                                                               59
60
BROADCASTING
  BOARD OF
 GOVERNORS
OFFICE OF AUDITS

Audit of the Broadcasting Board of Governors Information Security
Program (AUD-IT-IB-14-02)
In accordance with the Federal Information Security Management Act of 2002
(FISMA), the Office of Inspector General (OIG) contracted with Williams, Adley
& Company-DC, LLP to perform an independent audit of the Broadcasting Board
of Governors (BBG) Information Security Program’s compliance with Federal laws,
regulations, and standards established by FISMA, the Office of Management and
Budget (OMB), and the National Institute of Standards and Technology (NIST).
Overall, the contractor found that BBG had implemented an information-security
program and had made progress during FY 2013, but the audit identified control
weaknesses that, if exploited, could cause security security breaches.
Collectively, the control weaknesses identified in this audit represented a significant
deficiency, as defined by OMB Memorandum M-12-20, to enterprise-wide security.
The weakened security controls could adversely affect the confidentiality, integrity,
and availability of information and information systems. A further compounding
factor is that BBG had not fully taken corrective action to remediate all of the control
weaknesses identified in the FY 2012 FISMA report. The report contained 13 recom-
mendations to address security deficiencies identified in eleven reportable areas, the
most significant of which were related to risk- management framework, continuous
monitoring program, enterprise-wide and system-specific contingency plan, incident
response and reporting program, and the Plans of Action and Milestones (POA&M)
process.


Independent Auditor’s Report on the Broadcasting Board of Governors
2013 Financial Statements (AUD-FM-IB-14-14)
An independent external auditor audited the BBG’s annual consolidated financial
statements as of, and for the year ended, September 30, 2013. The auditor found the
consolidated financial statements present fairly, in all material respects, the financial
position of BBG as of September 30, 2013, and its net cost of operations, changes in
net position, and budgetary resources for the year then ended, in accordance with
accounting principles generally accepted in the United States of America.




                                                                                            63
     The auditor found certain material weaknesses and a significant deficiency in internal control
     over financial reporting. Specifically, the auditor found material weaknesses in grantee moni-
     toring and accounting for grant advance; property, plant, and equipment; and budgetary
     accounting; as well as a significant deficiency in information technology. The auditor also
     found instances of noncompliance with certain provisions of laws, regulations, contracts, and
     grant agreements, including Federal grant regulations, the Prompt Pay Act, the Antideficiency
     Act, Federal Acquisition Regulations, the Internal Revenue Service Code, and the Federal
     Managers’ Financial Integrity Act.


     Management Letter Related to the Audit of the Broadcasting Board of Governors
     2013 Financial Statements (AUD-FM-IB-14-15)
     During the audit of BBG’s 2013 financial statements, the independent external auditor identi-
     fied internal control weaknesses or instances of noncompliance with selected provisions of
     applicable laws and regulations relating to reconciliation of transactions recorded in suspense
     accounts, maintenance of time and attendance documentation, oversight of after-employment
     benefits for foreign-service nationals, accounting for contingent liabilities, presentation of the
     Statement of Net Cost, preparation of the Statement of Budgetary Resources, and require-
     ment for financial disclosure reports. The external auditor recommended that BBG take
     appropriate action to address these weaknesses.




64
APPENDIX 1: INVESTIGATIVE
ACTIVITIES

  Preliminary Inquiries
    Opened                                              0
    Closed                                              0
  Investigations
    Opened                                              0
    Closed                                              0
    Pending (9/30/13)                                   4
  Criminal Actions
    Referrals for Prosecution                           11
    Indictments/Informations                            0
    Convictions                                         0
    Sentencings (Months Imprisonment)                   0
    Sentencings (Months Probation)                      0
    Declinations                                        11
  Civil Actions
    Civil Referrals                                     0
    Civil Judgments                                     0
    Civil Declinations                                  0
  Administrative Referrals
    Referrals for Personnel Action                      0
    Suitability Referrals to DS                         0
    Contractor Suspensions/Debarment Referrals to OPE   0
  Administrative Actions
    Removals                                            0
    Suspensions                                         0
    Reprimand/Admonishments/Warning Memorandum          0
    Contractors/Grantees Suspended                      0
    Contractors/Grantees Debarred                       0
    Contractors/Grantees High Risk                      0
  Monetary Recoveries
    Criminal Fines/Recoveries                           $0
   Civil Recoveries                                     $0
   Administrative Recoveries                            $0
   Total Investigative Recoveries                       $0




                                                             65
     APPENDIX 2: REPORTS ISSUED


     Report Number     Report Title

     AUD-IT-IB-14-02   Audit of the Broadcasting Board of Governors Information Security
                       Program
     AUD-FM-IB-14-14   Independent Auditor’s Report on the Broadcasting Board of Gover-
                       nors 2013 Financial Statements
     AUD-FM-IB-14-15   Management Letter Related to the Audit of the Broadcasting Board
                       of Governors 2013 Financial Statements




66
APPENDIX 3: SAVINGS AND MORE
EFFECTIVE USE OF RESOURCES

TABLE 1: OIG REPORTS WITH QUESTIONED COSTS

None.


TABLE 2: OIG REPORTS WITH RECOMMENDATIONS THAT
FUNDS BE PUT TO BETTER USE

None.




                                                 67
     TABLE 3: OFFICE OF MANAGEMENT AND BUDGET
     CIRCULAR A-133 AUDITS
     Office of Management and Budget (OMB) Circular A-133, Audits of States, Local
     Governments, and Non-Profit Organizations, establishes audit requirements for state
     and local governments, colleges and universities, and nonprofit organizations receiv-
     ing Federal awards. Under this circular, covered entities that expend $500,000 or
     more a year in Federal funds must obtain an annual organization-wide “single audit”
     that includes the entity’s financial statements and compliance with Federal award
     requirements. These audits are conducted by non-Federal auditors, such as public
     accounting firms and state auditors.

     OIG reviews selected audit reports for findings and questioned costs related to BBG
     awards and to ensure that the reports comply with the requirements of OMB Circular
     A-133. OIG’s oversight of non-Federal audit activity informs Federal managers about
     the soundness of management of Federal programs and identifies any significant areas
     of internal control weaknesses, noncompliance, and questioned costs for resolution or
     follow-up.

     During this reporting period, OIG’s Office of Audits reviewed two OMB Circular
     A-133 audit reports covering $201 million in Federal funds, all of which were BBG
     funds. One of the two reports documented the awardee’s lack of internal controls and
     noncompliance with Federal requirements, to include weaknesses related to severance
     payments, travel expense reports and receipts, travel costs, use of business-class travel,
     and relocation expenditures. OIG also referred questioned costs of $84,786 to BBG
     program officials for resolution or follow-up. The following table summarizes OIG’s
     reviews of non-Federal audits conducted during this reporting period.




68
     Inspector General-Referred A-133 Audit Reports With Questioned Costs
                                                                           Questioned
                                                             Number of   Costs (Dollars
                                                              Reports    in Thousands)

A.   For which no management decision had been made by the          0             $0
     commencement of the reporting period


B.   Issued during the reporting period                             1         $84,786


     Subtotal Questioned Costs (A+B)                                         $84,786

C.   For which a management decision was made
     during the reporting period
     (i) dollar value of disallowed costs                                         $0
     (ii) dollar value of costs not disallowed                                    $0


     Total Management Decisions                                    11        $84,786

D.   For which no management decision had been                             $9,431,249
     made by the end of the reporting period




                                                                                          69
     APPENDIX 4: RESOLUTION OF
     REPORTS AND RECOMMENDATIONS

     SIGNIFICANT OFFICE OF AUDITS RECOMMENDATIONS
     PENDING FINAL ACTION
     None.


     SUMMARY OF OFFICE OF AUDITS REPORTS WITHOUT
     MANAGEMENT DECISION FOR MORE THAN SIX MONTHS

     Report Number: AUD-CG-IB-13-43
     Subject: Outline for Action: Management Attention Needed To Improve Broadcasting Board
     of Governors Acquisition Functions
     Date Issued: September 26, 2013.
     Reason for not being resolved: OIG recommended that the Director of the International
     Broadcasting Bureau immediately cease the use of personal services contracts and pre-
     approval for contracts that violate the Anti-Deficiency Act; take administrative disciplin-
     ary action as deemed appropriate; and report immediately to the President, Congress,
     and Comptroller General all relevant facts and a statement of actions taken, as required
     by 31 U.S.C. §1351, “Reports on violations.” OIG also recommended that the Director
     of the International Broadcasting Bureau obtain the assistance of outside experts in
     Federal acquisition and contracting to conduct an acquisition assessment within the
     Office of Contracts. In its formal response to the draft report, BBG did not agree with
     Recommendations 1 and 2. Therefore, Recommendations 1 and 2 remain unresolved.
     Projected date of resolution: August 2014.

     REVISED MANAGEMENT DECISIONS
     None.




70
REVISED MANAGEMENT DECISION
None.



MANAGEMENT SUCCESS IN RESOLVING AND IMPLEMENTING
RECOMMENDATIONS
None




                                                   71
     APPENDIX 5: AUDITS PERFORMED
     BY CONTRACTORS

                                                                                        Type of
     Report Number     Report Title                                Contractor
                                                                                        Engagement
     AUD-IT-IB-14-02   Audit of the Board of Broadcasting Governors Williams, Adley &   Performance
                       Information Security Program                 Company-DC, LLP     Audit
     AUD-FM-IB-14-14   Independent Auditor’s Report on the         Kearney &            Financial
                       Broadcasting Board of Governors 2013        Company, P.C.        Statement
                       Financial Statements

     AUD-FM-IB-14-15   Management Letter Related to the Audit of   Kearney &            Financial
                       the Broadcasting Board of Governors 2013    Company, P.C.        Statement
                       and 2012 Financial Statements




72
CONGRESSIONAL AND PUBLIC
AFFAIRS ACTIVITIES


BRIEFINGS

OIG meets regularly with members of Congress and their staffs to inform them of
its activities and findings. OIG also responds to congressional inquiries on a range of
matters. During this reporting period, OIG met with members or staff of most of the
committees overseeing the office, as well as several other staffs. Additionally, OIG began
publishing and distributing to Congress a monthly update that summarizes key OIG
achievements.
Of particular note, on February 26, in advance of public release of its report, Keystone XL
Pipeline Project Compliance Follow-up Review, OIG provided a briefing for the staffs of
several congressional members. Audit team members provided background information
on the report and its findings and responded to questions.


CONGRESSIONAL MANDATES AND REQUESTS

The following OIG products were generated in direct response to statutory requirements:
In compliance with the Chief Financial Officers Act of 1990 (Public Law 101-576, as
amended), OIG directed and monitored the following financial statement audits:

   •	 Independent Accountant’s Report on the Application of Agreed-Upon Procedures:
      Employee Benefits, Withholdings, Contributions, and Supplemental Semiannual
      Headcount Reporting Submitted to the Office of Personnel Management
      (AUD-FM-14-01)
   •	 Independent Auditor’s Report on the U.S. Department of State 2013 and 2012
      Special-Purpose Financial Statements (AUD-FM-14-09)
   •	 Independent Auditor’s Report on the U.S. Department of State 2013 and 2012
      Financial Statements (AUD-FM-14-10)
   •	 Management Letter Related to the Audit of the Department of State 2013 and 2012
      Financial Statements (AUD-FM-14-11)



                                                                                              73
        •	 Independent Auditor’s Report on the International Boundary and Water
           Commission, United States and Mexico, U.S. Section, 2013 and 2012 Financial
           Statements (AUD-FM-14-12)
        •	 Management Letter Related to the Audit of the International Boundary and
           Water Commission, United States and Mexico, U.S. Section, 2013 Financial
           Statements (AUD-FM-14-13)
        •	 Independent Auditor’s Report on the Broadcasting Board of Governors 2013
           Financial Statements (AUD-FM-IB-14-14)
        •	 Management Letter Related to the Audit of the Broadcasting Board of Governors
           2013 and 2012 Financial Statements (AUD-FM-IB-14-15)

     In compliance with the Federal Information Security Management Act of 2002
     (FISMA) (44 U.S.C. § 3545), OIG issued the following reports:

        •	 Audit of Department of State Information Security Program (AUD-IT-14-03)
        •	 Audit of the Broadcasting Board of Governors Information Security Program
           (AUD-IT-IB-14-02)


     MEDIA RELATIONS AND OUTREACH

     During this reporting period, OIG made its reports available to the media and other
     interested parties both directly and online through regular postings on its public Web
     site (oig.state.gov) and via Twitter.
     OIG continues to improve its Web sites. Work is underway to update the external
     site’s style and format as it migrates to a more dynamic, open-source content-
     management system. New features include the addition of a live Twitter feed on the
     homepage, as well as a “New at OIG” page highlighting the office’s latest published
     work.

     These OIG reports drew the greatest number of media inquiries and subsequent
     articles or postings during the reporting period:

        •	 Keystone XL Pipeline Project Compliance Follow-up Review: The Department
           of State’s Choice of ERM, Inc., To Assist in Preparing the Supplemental
           Environmental Impact Statement (AUD-SI-14-20)
        •	 Management Alert: OIG Findings of Significant and Recurring Weaknesses in
           the Department of State Information System Security Program (MA-A-0001)



74
   •	 Inspection of the Bureau of Economic and Business Affairs (ISP-I-14-01)
   •	 Independent Auditor’s Report on the U.S. Department of State 2013 and 2012
      Financial Statements (AUD-FM-14-10)



Foreign Delegations
OIG regularly meets with officials from around the world to discuss a range of issues
related to government oversight. During the reporting period, senior OIG staff
met with a delegation from Cameroon’s State Audits team. The visitors were on a
multi-country tour to learn ways to prevent fraud and misuse of public funds. The
discussion focused on workplace ethics and ideas for training, as well as OIG’s legal
framework for oversight.




                                                                                        75
76
ABBREVIATIONS

Abbreviation   Full Name
               Bureau of Administration, Office of Logistics Management, Office
A/LM/AQM
               of Acquisitions Management
AF             Bureau of African Affairs
ATA            Antiterrorism Assistance
BBG            Broadcasting Board of Governors
CIGIE          Council of the Inspectors General on Integrity and Efficiency
CIVPOL         civilian police
CO             contracting officer
COR            contracting officer’s representative
CSO            Bureau of Conflict and Stabilization Operations
CSSP           Corrections System Support Program
DCAA           Defense Contract Audit Agency
Department     U.S. Department of State
DOI            Department of the Interior
DS             Bureau of Diplomatic Security
EAP            emergency action plan
ECA            Bureau of Educational and Cultural Affairs
ERM            Environmental Resources Management, Inc.
FISMA          Federal Information Security Management Act of 2002
FMFIA          Federal Managers Financial Integrity Act
GDPDC          General Directorate of Prisons and Detention Centers
GTM            government technical monitor
INL            Bureau of International Narcotics and Law Enforcement Affairs
INV            Office of Investigations
ISP            Office of Inspections



                                                                                  77
     Abbreviation   Full Name
     M/PRI          Office of Management Policy, Rightsizing, and Innovation
     NIST           National Institute of Standards and Technology
     OIG            Office of Inspector General
     OMB            Office of Management and Budget
     ONDCP          Office of National Drug Control Policy
     PEPFAR         President’s Emergency Plan for AIDS Relief
     PIB            Procurement Information Bulletin
     PMS            Payment Management System
     PSS            Procurement Shared Services
     REA            Request for Equitable Adjustment
     SAR            Semiannual Report to the Congress
     TCI            Triple Canopy, Inc.
     TIP            trafficking in persons
     USAID          U.S. Agency for International Development
                    International Boundary and Water Commission, United States
     USIBWC
                    and Mexico, U.S. Section




78
                   Index of Reporting Requirements
         Inspector General Act of 1978, as Amended
Requirement            Subject                                                     Page Number(s)

Section 4(a)(2)        Review of legislation and regulations                            none

Section 5(a)(1)        Summary of significant problems, abuses, and deficiencies         3-7

Section 5(a)(2)        Significant recommendations for corrective action              37-56, 57

Section 5(a)(3)        Prior significant recommendations unimplemented             37-47,54-56, 68

Section 5(a)(4)        Matters referred to prosecutive authorities                      26-27

Section 5(a)(5)        Information or assistance refused                                none

Section 5(a)(6)        List of reports issued                                         30-31, 64

Section 5(a)(7)        Summaries of significant reports                              11-21, 61-62

Section 5(a)(8)        Reports – questioned costs                                       32, 65

Section 5(a)(9)        Reports – funds to be put to better use                          33, 65

Section 5(a)(10)       Prior reports unresolved                                       48-51, 68

Section 5(a)(11)       Significant revised management decisions                         none

Section 5(a)(12)       Significant management decisions with which OIG disagreed        none

Section 5(a)(14)       Peer review results                                               59

Section 5(a)(15)(16)   Status of peer review recommendations                             59
    UNITED STATES DEPARTMENT OF STATE
AND THE BROADCASTING BOARD OF GOVERNORS
       OFFICE OF INSPECTOR GENERAL
